<html>
<title> - COUNTER-TERRORISM FINANCING FOREIGN TRAINING AND ASSISTANCE: PROGRESS SINCE 9/11</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                     COUNTER-TERRORISM FINANCING
                    FOREIGN TRAINING AND ASSISTANCE:
                          PROGRESS SINCE 9/11

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                      OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 6, 2006

                               __________

       Printed for the use of the Committee on Financial Services


                    U.S. GOVERNMENT PRINTING OFFICE
30-535                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                           Serial No. 109-84

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    MICHAEL G. OXLEY, Ohio, Chairman

JAMES A. LEACH, Iowa                 BARNEY FRANK, Massachusetts
RICHARD H. BAKER, Louisiana          PAUL E. KANJORSKI, Pennsylvania
DEBORAH PRYCE, Ohio                  MAXINE WATERS, California
SPENCER BACHUS, Alabama              CAROLYN B. MALONEY, New York
MICHAEL N. CASTLE, Delaware          LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             MELVIN L. WATT, North Carolina
ROBERT W. NEY, Ohio                  GARY L. ACKERMAN, New York
SUE W. KELLY, New York, Vice Chair   DARLENE HOOLEY, Oregon
RON PAUL, Texas                      JULIA CARSON, Indiana
PAUL E. GILLMOR, Ohio                BRAD SHERMAN, California
JIM RYUN, Kansas                     GREGORY W. MEEKS, New York
STEVEN C. LaTOURETTE, Ohio           BARBARA LEE, California
DONALD A. MANZULLO, Illinois         DENNIS MOORE, Kansas
WALTER B. JONES, Jr., North          MICHAEL E. CAPUANO, Massachusetts
    Carolina                         HAROLD E. FORD, Jr., Tennessee
JUDY BIGGERT, Illinois               RUBEN HINOJOSA, Texas
CHRISTOPHER SHAYS, Connecticut       JOSEPH CROWLEY, New York
VITO FOSSELLA, New York              WM. LACY CLAY, Missouri
GARY G. MILLER, California           STEVE ISRAEL, New York
PATRICK J. TIBERI, Ohio              CAROLYN McCARTHY, New York
MARK R. KENNEDY, Minnesota           JOE BACA, California
TOM FEENEY, Florida                  JIM MATHESON, Utah
JEB HENSARLING, Texas                STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            BRAD MILLER, North Carolina
GINNY BROWN-WAITE, Florida           DAVID SCOTT, Georgia
J. GRESHAM BARRETT, South Carolina   ARTUR DAVIS, Alabama
KATHERINE HARRIS, Florida            AL GREEN, Texas
RICK RENZI, Arizona                  EMANUEL CLEAVER, Missouri
JIM GERLACH, Pennsylvania            MELISSA L. BEAN, Illinois
STEVAN PEARCE, New Mexico            DEBBIE WASSERMAN SCHULTZ, Florida
RANDY NEUGEBAUER, Texas              GWEN MOORE, Wisconsin,
TOM PRICE, Georgia                    
MICHAEL G. FITZPATRICK,              BERNARD SANDERS, Vermont
    Pennsylvania
GEOFF DAVIS, Kentucky
PATRICK T. McHENRY, North Carolina
CAMPBELL, JOHN, California

                 Robert U. Foster, III, Staff Director
              Subcommittee on Oversight and Investigations

                     SUE W. KELLY, New York, Chair

RON PAUL, Texas, Vice Chairman       LUIS V. GUTIERREZ, Illinois
EDWARD R. ROYCE, California          DENNIS MOORE, Kansas
STEVEN C. LaTOURETTE, Ohio           CAROLYN B. MALONEY, New York
MARK R. KENNEDY, Minnesota           STEPHEN F. LYNCH, Massachusetts
SCOTT GARRETT, New Jersey            ARTUR DAVIS, Alabama
J. GRESHAM BARRETT, South Carolina   EMANUEL CLEAVER, Missouri
TOM PRICE, Georgia                   DAVID SCOTT, Georgia
MICHAEL G. FITZPATRICK,              DEBBIE WASSERMAN SCHULTZ, Florida
    Pennsylvania                     GWEN MOORE, Wisconsin
GEOFF DAVIS, Kentucky                BARNEY FRANK, Massachusetts
PATRICK T. McHENRY, North Carolina
MICHAEL G. OXLEY, Ohio


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 6, 2006................................................     1
Appendix:
    April 6, 2006................................................    43

                               WITNESSES
                        Thursday, April 6, 2006

Feierstein, Gerald M., Deputy Coordinator for Programs and Plans, 
  Office of the Coordinator for Counter Terrorism, U.S. 
  Department of State............................................    21
McDonald, William Larry, Deputy Assistant Secretary, Technical 
  Assistance Policy, U.S. Department of the Treasury.............    18
Sabin, Barry M., Deputy Assistant Attorney General, U.S. 
  Department of Justice..........................................    23
Walker, Hon. David M., Comptroller General of the United States..     5

                                APPENDIX

Prepared statements:
    Oxley, Hon. Michael G........................................    44
    Kelly, Hon. Sue..............................................    45
    Grassley, Hon. Charles.......................................    47
    Royce, Hon. Ed...............................................    50
    Feierstein, Gerald M.........................................    51
    McDonald, William Larry......................................    60
    Sabin, Barry M...............................................    67
    Walker, Hon. David M.........................................    84

              Additional Material Submitted for the Record

    Written responses to questions submitted by Hon. Barney 
      Frank, Hon. Carolyn B. Maloney, and Hon. Luis V. Gutierrez.   114


                      COUNTER-TERRORISM FINANCING
                    FOREIGN TRAINING AND ASSISTANCE:
                          PROGRESS SINCE 9/11

                              ----------                              


                        Thursday, April 6, 2006

             U.S. House of Representatives,
                          Subcommittee on Oversight
                                and Investigations,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2128 Rayburn House Office Building, Hon. Sue W. Kelly 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Kelly, Garrett, Gutierrez, Lynch, 
Scott, Cleaver, Wasserman-Schultz, and Moore of Wisconsin.
    Chairwoman Kelly. This hearing of the Subcommittee on 
Oversight and Investigations will come to order.
    Without objection, all members' opening statements will be 
made part of the record.
    The subcommittee will hear the testimony of two panels this 
morning. Mr. Walker, I know you are familiar with our light 
system so I am not going to bother to explain it. Without 
objection, you know your written statement will be made part of 
the record and you know that you will be recognized for 
approximately 5 minutes for your testimony. And with that, I am 
going to talk for a minute about what the subject of this 
hearing is--counter-terrorism financing foreign training and 
assistance, the progress that we have made since 9/11.
    This committee has been working very hard to improve 
efforts to stop terror financing, both within the United States 
and overseas. There have been many successes, but we know that 
terror networks will always adapt to our successes in tracking 
their financial activities. As the terrorists continue to 
adapt, the cooperation of other nations becomes even more 
essential. Recent examples remind us of the continuing need to 
secure better assistance from other nations in fighting terror 
financing. Just last week, The New York Post reported that a 
bank in New York had moved more than $1 billion to terrorist 
havens in the so-called tri-border area of Brazil, Argentina, 
and Paraguay. The Holland-based ABN AMRO was recently fined $80 
million for facilitating illegal trades with Iran and Libya. 
And, as we speak, the Nation of Jordan, an important strategic 
ally of ours, still lacks appropriate financial defenses, 
despite reports that their financial system is being used to 
finance the insurgency, and despite the Arab Bank scandal, 
which revealed glaring weaknesses in the Jordanian-controlled 
bank. Our efforts to compel better cooperation in securing the 
international financial system rely on a strong and unified 
approach from the Federal agencies which share the 
responsibility on this issue. Unfortunately, we find that this 
cooperation is often lacking.
    This committee has seen it firsthand. For example, the 
State Department testified before the International Relations 
Committee in 2004 that Saudi Arabia had established a Financial 
Intelligence Unit. Later that same year, Treasury Department 
officials testified before this committee on more than one 
occasion that the Saudis had not yet established an FIU. I went 
to Riyadh last year and found out that the Treasury Department 
was correct. While the Saudis have made substantial progress in 
the last year towards establishing an FIU, the point remains 
that Treasury and State were not on the same page regarding an 
important anti-terror financing tool in a critically important 
country.
    The question is, what does this say about the broader 
efforts? The GAO has presented us with another troubling 
example with a detailed report requested by Senators Grassley, 
Collins, and Durbin, on interagency cooperation in assisting 
other countries in counter-terror cooperation. This report 
concluded that better cooperation was needed between State, 
Treasury, and other agencies in developing priorities 
delivering aid and assessing results. In particular, the GAO 
report found that State and Treasury disagreed about who the 
lead agency is in technical assistance to foreign countries. 
The U.S. Government does not yet have a system of measuring the 
effectiveness of aid delivered. The Treasury Department lacked 
the ability to provide an accurate account of terrorist funds 
frozen. Unfortunately, these conclusions are not as surprising 
as they should be. And we have to do more now to unify the 
Government's efforts.
    I have sponsored legislation with Mrs. Maloney that would 
provide an objective assessment measure on technical 
assistance. The Treasury-led certification regime on money 
laundering and terrorism financing in H.R. 3505 would allow 
each nation to be graded on how well it is doing. The fat of 
process is no longer an adequate measure or else State and 
Treasury would only be working with two countries and not a 
dozen. This legislation passed the House by a vote of 415 to 2, 
and it is now under consideration in the Senate. Without some 
public measure of effectiveness, America's businesses, 
investors, and taxpayers will never know if our efforts are 
adequate or not. A fragmented approach sends the wrong message 
to other nations whose cooperation we are seeking.
    What I am hopeful to hear today are answers from these 
agencies that will help us heal the fractures that I feel are 
undermining the fight against terror financing.
    Thank you very much for being here, and I turn now to Mr. 
Gutierrez.
    Mr. Gutierrez. Good morning, a special good morning to you, 
Chairwoman Kelly. I want to thank you very much for calling 
this hearing. At the February 15th hearing, a number of us 
asked OFAC director Warner about the GAO report, and I am 
pleased that we will have an entire hearing devoted to the 
subject today. I am particularly pleased to welcome the 
Honorable David M. Walker, Comptroller General of the GAO. Ms. 
Kelly and I have been keeping your staff busy with other GAO 
reports, and I must commend them on their excellent work. I am 
also pleased that we are joined by representatives of State, 
Treasury, and Justice here today.
    The GAO report indicated a number of problems in the 
overall efforts to combat terrorist financing, many of which 
were directly linked to turf battles between Treasury and 
State. Therefore, I am very interested in learning what steps 
have been taken in the face of that report to improve the 
working relationship between the agencies and how the roles, 
responsibilities, and procedures are defined when the agencies 
work together on designations and blocking assets. I am also 
very interested to learn why the agencies have ignored most of 
the GAO's fine recommendations regarding the development of a 
strategic plan and a Memorandum of Understanding between the 
agencies.
    Finally, there was a point mentioned in the GAO report, 
which several of my colleagues noted back in February. The GAO 
recommended that Treasury provide more complete information on 
the nature and extent of asset blocking in its Annual 
Terrorists' Assets Report to Congress. I was shocked to see 
that Treasury's reply to this recommendation was that the 
Agency objected, and instead wanted the GAO to recommend 
discontinuing these reports. As a Member of Congress, 
particularly a member of this Oversight Subcommittee, I want 
this information. I understand that we should receive the next 
one this month. I think we need an accurate way to measure your 
effectiveness. If these snapshots do not provide us with that 
ability, please helps us figure out how to assess your 
performance and include additional information to place the 
numbers in context.
    I want to thank you very much, and I look forward to your 
testimony, Mr. Walker.
    Chairwoman Kelly. Thank you. Mr. Lynch.
    Mr. Lynch. Thank you, Madam Chairwoman. I want to thank 
you, as well as the ranking member, for your great work on 
this. I also want to thank the members of the panels that we 
have today for helping Congress in this important work. This is 
probably one of the most important hearings that our 
subcommittee could be focusing on right now. There has been, I 
think, considerable progress made up to this point, but having 
spent--I just returned from my fourth trip to Iraq and also 
visiting Afghanistan, having been in Amman, Jordan and Ramallah 
on the West Bank, there is a lot of work that remains to be 
done. I want to just acknowledge the work that has been done 
thus far.
    One of the interesting conversations I had with a couple of 
our generals in east Fallujah about a month ago, I asked our 
generals and a couple of the colonels there, I said, ``How much 
of the foreign-based insurgency is attributable to foreign 
fighters, how much of the insurgency is attributable to foreign 
activity, foreign financed, foreign equipped, foreign 
fighters?'' And they estimated that it was probably about 30 
percent; 25 to 30 percent is foreign-sponsored of the 
insurgency in Iraq. And I said, ``How much of this would go 
away if we were able to cut off the financing? How much of this 
insurgency would stop if we were able to scale down the 
insurgency and the United States were able to eventually 
withdraw?'' And their estimation was that all of it, or nearly 
all of it, would go away.
    So sometimes we think about the work on anti-terrorist 
financing as being a latent threat, that people are out there 
plotting against us and that they may, at some point, take 
action. I just want to report for this committee's benefit that 
the threat is active and the threat is ongoing, and that the 
work that we do here on this committee and that is being done 
by the Agencies present here today, has very real results on 
the ground in Iraq and Afghanistan and elsewhere in the world.
    I do want to say that along with some of the successes we 
have had there are some frustrations. And I have read the GAO 
report, and I know that it hallmarks certain areas. But one is 
the seemingly--well, it seems like turf battles between various 
agencies involved, and that is discouraging because of the work 
we need to do, and also some resistance by foreign governments 
in Amman, in Syria, and some of the lack of counter-terrorist 
measures in places like Ramallah, where the financing situation 
there is basically without any reliable controls.
    I guess what I would want to say is that we are looking for 
ways to help as Members of Congress, and this is not a Democrat 
versus Republican thing, this is for the benefit of our troops 
and of our Nation, as well as our international partners, 
against terrorism. And this is sort of where the rubber meets 
the road. And so we need to know from all of the witnesses 
today what we can do to help you do your job and where would 
Congress' best efforts lie in terms of producing the greatest 
benefit in this war on terrorism and on terrorism financing. I 
look forward to the responses of both our panels, and again I 
want to thank Madam Chairwoman and Ranking Member Gutierrez for 
their great work on this.
    I yield back.
    Chairwoman Kelly. Thank you, Mr. Lynch. Mr. Scott?
    Mr. Scott. Thank you very much, Madam Chairwoman. And, 
again, I want to just thank you, as the chairwoman of our 
subcommittee, and Ranking Member Gutierrez, for convening 
another hearing. This is an extraordinarily important hearing. 
And as we look out at this country, each generation has had to 
rise to the occasion to meet its great challenges. In the 
revolutionary period, there was a Revolutionary War, and the 
Civil War, and they all rose to their occasions, all the way 
down through World War I and II, the Depression, each 
generation faced theirs. Well, this war on terror is this 
generation's moment of challenge to maintain the greatness of 
this country and the civility of the world. With that, however, 
it is very, very disheartening, and quite frankly, very scary 
to read about the turf battles among the various Departments 
and Agencies involved with the Terrorist Financing Working 
Group, TFWG. President Bush's Administration is constantly 
defending itself from charges of an inability to coordinate 
efforts and respond to unique challenges, whether they be 
intelligence failures before and after September 11th, or 
Katrina preparation and response, and most recently we caught 
another glimpse of the Administration's coordination 
shortcomings, the shocking events surrounding the Dubai ports 
deal.
    The United Arab Emirates' connection to terrorist financing 
seems to have been ignored in the approval of the sale of P&O 
and the WF Ports world deal. Members of Congress, ourselves, 
and even the President of the United States himself, did not 
find out about the deal until it appeared on every front page 
of every newspaper in this country and was the leading story in 
every newscast on television and radio in this country.
    The GAO report offers specific examples of childish 
squabbles among the members of the body whose job it is to 
identify countries vulnerable to terrorist financing. The GAO 
report offers us both a potential partial explanation as to why 
this deal was allowed to go through, but it also is very 
important to treat this report as yet another opportunity for 
us to improve upon the Bush Administration's, and the entire 
Federal Government's, prosecution of the war against 
fundamental terrorism. We have so much work to do. This is a 
new ball game for us. We must rise to this occasion. The future 
of our country, future generations, are depending upon us.
    So I look forward to this hearing. I look forward to the 
recommendations of the GAO for fixing some of the TFWG's 
problems and how the Departments of State, Treasury, and 
Justice plan to address them. I am very hopeful that our 
witness will impress upon their bosses, Secretary Rice, 
Secretary Snow, Attorney General Gonzales, that this 
committee's desire is to see that the TFAG's coordination is 
improved. This Nation's future is very much in your hands, and 
certainly in our hands as Congress, and the Nation is very much 
tuned into this. They are watching. They are looking. Quite 
frankly, they are hoping. And they are praying that we get it 
right.
    Thank you, Madam Chairwoman.
    Chairwoman Kelly. Thank you, Mr. Scott. Mr. Walker, we 
welcome you. We have our first panel here, the Honorable David 
M. Walker. He is the Comptroller General of the GAO. David 
Walker became the seventh Comptroller General of the United 
States and began his 15 year term when he took his oath of 
office on November 9, 1998. As Comptroller General, Mr. Walker 
is the Nation's chief accountability officer and head of the 
U.S. Government Accountability Office. That is a Legislative 
Branch Agency that was founded in 1921. The mission of the GAO 
is to help improve the performance and assure the 
accountability of the Federal Government for the benefit of the 
American people.
    And, as you have heard here this morning from the 
statements, Mr. Walker, that is the purpose of this hearing. We 
are concerned that we do, as Mr. Scott, my colleague said, that 
we do get this right. We appreciate that you are able to find 
time to be here this morning, and we look forward to your 
testimony.
    I have already described the function of the lights. You 
know how they work. And please proceed.

STATEMENT OF THE HONORABLE DAVID M. WALKER, COMPTROLLER GENERAL 
     OF THE UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. Madam Chairwoman and members of the 
subcommittee, it is a pleasure to be before you. I am glad I 
was able to work out the time to come, I think this is a very 
important topic.
    I would like to address some of our recent work dealing 
with counter-terrorism financing efforts, primarily based upon 
the GAO report that was issued in October of 2005. I would also 
like to recognize for the record your work, Madam Chairwoman, 
and the work of this subcommittee in providing leadership in 
this area, which is very much appreciated and very important.
    As you have said on many occasions, Madam Chairwoman, 
disrupting terrorist financing can raise terrorists' cost and 
risks of gathering and moving assets and is necessary to impede 
their ability to carry out significant operations.
    In October of 2005, GAO issued a report on the United 
States' efforts to counter terrorist financing abroad. We noted 
that the United States plays an active and ongoing role in 
building international support for measures to combat terrorist 
financing. For example, the U.S. Government has participated in 
efforts to develop and implement international standards to 
combat terrorist financing, sometimes leading these efforts. 
The United States also conducts various intelligence and law 
enforcement activities designed to identify and disrupt the 
flow of terrorist financing abroad. These activities include, 
among other things, gathering intelligence and sharing 
information with other countries.
    Further, the United States provides training and technical 
assistance to help countries that are vulnerable to terrorist 
financing activities and to help them establish effective 
counter-terrorism-financing regimes.
    In addition, the United States has participated in global 
efforts to publicly designate individuals and groups as 
terrorists and to block their access to assets.
    As our October 2005 report showed, much has been 
accomplished by the combined efforts of these agencies. 
However, our report also noted that various challenges exist 
that could serve to negatively impact our effectiveness, as 
well as Congress' ability to perform its own oversight, 
appropriations, and other activities.
    I might note, as is contained in my written statement, 
which you have kindly put into the record, that GAO is not only 
involved in doing our traditional oversight, insight, and 
foresight work in this area, but we also are involved as part 
of the international auditor community. We are head of 
strategic planning for auditors general around the world and on 
the board of directors of the International Organization of 
Supreme Audit Institutions, which is comprised of 186 
countries, and has a task force focusing on what auditors 
general can do to help in this area. And let me say for the 
record, including to the agencies that are here, we can help, 
we are willing to help to the extent that they deem it possible 
and appropriate, obviously without compromising our 
independence.
    Although the U.S. Government provides a range of training 
and technical assistance to countries it deems vulnerable to 
terrorist financing, it does not have a strategic and 
integrated plan to coordinate the delivery of this assistance. 
We found that interagency efforts lack three basic elements 
that we believe are critical to effective execution of 
operations within and across agencies. First, there needs to be 
key stakeholder acceptance of the various roles and 
responsibilities and procedures that will be used. Secondly, 
there needs to be strategic alignment of resources, which are 
limited to meet essential needs. And, thirdly, there needs to 
be a performance measurement process in order to assess the 
effectiveness of activities that are being engaged in.
    In our October 2005 report, we recommended that the 
Secretaries of State and the Treasury, in consultation with the 
National Security Council and other Government agencies, 
implement an integrated strategic plan and sign a Memorandum of 
Agreement or Memorandum of Understanding to improve 
coordination of counter-terrorism-financing training and 
technical assistance. In their March 2006 letters to the 
Congress regarding their responses to our recommendations, 
State and Treasury describe, in general, certain steps that 
they are taking to improve the interagency process. For 
example, working with one another and with the Terrorist 
Finance Working Group (TFWG) members, to review and revise 
related procedures and to try to obtain better acceptance. 
However, the letters do not provide any information regarding 
steps to systematically assess and align U.S. resources with 
country needs or to measure the results of the training and 
technical assistance, and they did not address our 
recommendation for the need for a Memorandum of Agreement.
    U.S. agencies have accomplished much in their efforts to 
combat terrorism-financing abroad. Despite the difficulties of 
interagency coordination, TFWG has delivered counter-terrorism-
financing training and technical assistance to numerous 
vulnerable countries and as designated and blocked significant 
amounts of terrorist assets. However, without a strategic and 
integrated plan for coordinating the funding and delivery of 
training and technical assistance by agencies, the U.S. 
Government cannot maximize the use of its resources in the 
fight against terrorist financing. Interagency disputes over 
State Department-led TFWG roles and procedures have hampered 
TFWG leadership and, unfortunately in some cases, wasted 
valuable staff time and talent.
    Furthermore, the U.S. Government's, including TFWG's, 
failure to integrate all available U.S. and international 
resources may result in missed opportunities to leverage 
resources to maximize value and mitigate risk.
    Finally, without a functional performance measurement 
system, TFWG lacks the information needed for optimal planning 
and coordination, and Congress lacks the information that it 
needs to conduct effective oversight.
    Finally, with regard to the Congress. In view of 
Congressional interest in U.S. Government efforts to deliver 
training and technical assistance abroad to combat terrorist-
financing and the difficulty of obtaining a systematic 
assessment of U.S. resources dedicated to this endeavor, as 
stated in our report, we would respectfully suggest that 
Congress should consider requiring the Secretary of State and 
the Secretary of the Treasury to submit a meaningful annual 
report to the Congress, showing the status of interagency 
efforts to develop and implement an integrated strategic plan 
and to ensure that a Memorandum of Agreement is entered into to 
assure the effective activities of TFWG and its related 
responsibilities.
    Madam Chairwoman, this concludes my opening statement, and 
I would be more than happy to answer any questions that you or 
Ranking Member Gutierrez or any other members may have.
    [The prepared statement of Mr. Walker can be found on page 
84 of the appendix.]
    Chairwoman Kelly. Thank you very much, Mr. Walker. We 
really appreciate your work on this, the work of your Agency, 
and the sincere effort to try to make sure that this becomes a 
reality sooner rather than later in terms of cooperation.
    I would like to ask a couple of questions, we asked you to 
report on the status of interagency efforts and I am very 
interested in how Treasury works as a single Agency, in 
particular the relationship between the international affairs 
and the TFI stove pipes. Can you explain to the committee what 
coordination, if any, you saw between these two branches of the 
Treasury?
    Mr. Walker. Yes, there is detailed information contained in 
the report.
    Chairwoman Kelly. Mr. Walker, do you want to identify this 
gentleman and have him come sit at the table?
    Mr. Walker. If you wouldn't mind, Madam Chairwoman, he is 
involved in the details.
    Chairwoman Kelly. No, we would be very happy to have him.
    Mr. Walker. This is Loren Yager, who is one of our 
executives in the international affairs and trade area.
    Mr. Yager. Thank you, Madam Chairwoman. We looked at a 
number of the efforts in the specific field of terrorist 
financing training and, as we detail in the report, we found a 
number of activities that were ongoing, some were very 
successful and some indicated that there were disagreements 
between the agencies that frankly had not been resolved and 
these difficulties had persisted for some years in the time 
before the publication of our report. So I think it is 
certainly a mixed picture, as the Comptroller General has 
indicated. There were examples of successful coordination but 
there were other cases where the disagreements persisted for 
many years and, as you indicated, could have had an effect on 
the effectiveness of U.S. efforts, as well as the ability to 
take advantage of opportunities and needs outside of the United 
States.
    Chairwoman Kelly. Can you give me any specific information 
about the TFI and the international affairs stove pipes?
    Mr. Yager. Well, our report, one of the things we tried to 
focus on in the report, and I think is part of our advantage, 
is the ability to look at the agencies who work together, not 
just within Treasury but also between Treasury, State, and 
Justice. And I think those were the areas where we found the 
most significant disagreements, that the procedures that 
Treasury has in place, when it delivers training and technical 
assistance, differed from those of what State likes to do. And 
so we found that some of those disagreements, certainly there 
were longstanding efforts to put this training in place, but at 
the same time when brought together through the TFWG, we found 
that they just were unable to resolve those differences, and it 
did affect their ability to deliver the training in vulnerable 
countries.
    Chairwoman Kelly. Thank you very much. Mr. Walker, you 
mentioned the important role that FATF plays in the terrorist 
financing technical assistance role, but the NCCT list is now 
down to two nations and never was higher than 19 members. Given 
the limited nature of the NCCT list, do you see the need for 
other public benchmark measures of terror financing 
effectiveness?
    Mr. Walker. As you mentioned before, Madam Chairwoman, I 
think FATF is focused on this issue and they have done some 
good work. At the same point in time, with their list now being 
reduced down to two, there is little question that I think we 
believe, and I am sure you will find that the other witnesses 
will state on the second panel, that the United States is 
concerned with well more than two countries. Therefore we 
should not just be focused on the list that FATF has.
    Chairwoman Kelly. Thank you. I want to go to one more 
question about the lead agency role of the TFWG. It is not 
really spelled out in legislation. My question is whether or 
not you think we need legislation to clarify the roles and what 
other legislation you think might be necessary besides the 
annual report on the proposed MOA?
    Mr. Walker. We think it may be appropriate that there be 
legislation with regard to the annual report; legislation that 
would also require some type of clarity and a Memorandum of 
Agreement or Understanding between these parties, as I 
mentioned before. One would hope that you would not have to 
enact legislation to make that happen. But in the absence of 
the discretionary action by the Executive Branch, should the 
Congress so desire, that may be necessary.
    I think it is important to think about what leadership 
means. You need to have a lead to try to help facilitate the 
development of a strategic and integrated plan that can be used 
for entities within Departments, as well as between 
Departments. That is critically important. But beyond that, and 
beyond overseeing and being aware of what all is going on, 
leadership in this regard may be more facilitation rather than 
control. This is one of the issues that has to be addressed as 
well. So you need to have a lead for development of a plan, for 
overseeing the execution of that plan, and you need to have a 
lead who is facilitating things getting done rather than 
controlling what is getting done. Sometimes people don't 
understand the difference between those functions.
    Chairwoman Kelly. Well, I would hope that we might be able 
to work this out without legislation, but if legislation is 
needed, I am certainly sure that Mr. Gutierrez and I, as well 
as others on this subcommittee, and on the full Financial 
Services Committee, will be taking a look at that. And I very 
much appreciate the testimony that you have given. We turn now 
to Mr. Gutierrez.
    Mr. Gutierrez. Thank you. Comptroller Walker, in your 
testimony you explained that the State Department's Office of 
the Coordinator for Counter-Terrorism is ``charged with 
directing, managing, and coordinating all U.S. agency efforts 
to develop and provide counter-terrorism financing programs, 
including, but not limited to, those in priority countries.'' 
However, the Treasury Department responded to questions from 
Ranking Member Frank that Treasury believes that the State 
Department has the lead role only in coordinating these 
efforts, not in managing or directing, but coordinating. Can 
you explain the discrepancy?
    Mr. Walker. Ranking Member Gutierrez, that is directly the 
point that I am making. Without there being any clarification 
of what leadership means, it means different things to 
different people based on what they would like it to mean. My 
view is what needs to be clarified is that you need to have a 
lead for developing that strategic and integrated plan. You 
need to have a lead who has overall responsibility for 
monitoring what is going on, for collecting that information, 
and for providing the periodic reporting to the Congress. At 
the same point in time, that lead is not necessarily someone 
who has to direct others. They need to try to provide 
reasonable assurance that people are meeting their part of the 
deal on the Memorandum of Agreement or Memorandum of 
Understanding. I would, however, respectfully suggest that in 
this area you want that lead to be a facilitator. We have a 
number of players on the field here. They all have significant 
capabilities. They all can make a difference and are making a 
difference, and I think part of the problem may be merely when 
you say ``direct,'' that means that we are going to do it 
slower, and time is essential in this type of business. I do 
not know if we need somebody to direct; we need somebody to 
coordinate and facilitate.
    Mr. Gutierrez. Forgive the redundancy of the question--I 
think, Madam Chairwoman, that this is where a lot of our 
efforts might have to be focused in terms of our conversations 
and dialogue with the different agencies in terms of those 
verbs--directing, managing, and coordinating, just who is in 
charge of what and what that really means and what the 
implications of those things are because then we get people 
coming, as the State Department did come and say, we do not 
direct, we do not manage, we coordinate. And then sometimes I 
think to myself, well, if you coordinate, maybe you do manage. 
Maybe we should flesh out some of those directives so that 
everybody knows exactly what is expected of them and that you 
could have better coordination, to be redundant once again with 
the word.
    Comptroller Walker, the GAO made almost 2,000 
recommendations last year. I know that most of your 
recommendations are taken very seriously and many agencies act 
quickly upon your suggestions. In your experience, where would 
you rank this audit in terms of compliance with your 
recommendations?
    Mr. Walker. First, one of our key performance measures in 
our Annual Performance and Accountability Report to the 
Congress and the American people is what percentage of our 
recommendations that we made 4 years ago have been adopted. And 
we monitor them in the interim. But we figure if people do not 
do it within 4 years, they are probably not going to do it. 
Last year, 85 percent of the recommendations that we made 4 
years ago had been adopted within that 4-year period, some 
quicker than others. That is an all time record.
    I would say based upon the letter responses that we have 
seen, they are partially adopting our recommendations but not 
fully adopting our recommendations. As I mentioned before, we 
do not see anything about a Memorandum of Agreement or 
Memorandum of Understanding. We have not seen an express 
commitment that there will be a strategic and integrated plan, 
and I am not sure if they are going to be able to reach 
agreement on what the role of the lead person or agency is or 
not. You can ask them. Therefore, I would say a partial 
adoption but not full adoption. In addition, a couple of our 
specific recommendations were not directly addressed and 
responded to.
    Mr. Gutierrez. Okay, thank you very much, Comptroller. I 
was going to ask those two questions, Madam Chairwoman, because 
I think they both go to the heart of what I know is your 
priority, and my priority, and the priority of the members of 
this subcommittee, in terms of helping to coordinate the 
efforts and giving the agencies everything they need, but at 
the same time helping.
    Thank you very much, Comptroller Walker, for your answers 
and to our staff for all the wonderful work they have done. 
Thank you.
    Mr. Walker. Thank you. We have a great staff.
    Chairwoman Kelly. Yes, you do. Mr. Lynch?
    Mr. Lynch. Thank you, Madam Chairwoman. Mr. Walker, in the 
GAO report that we have, in one of the sections that is 
particularly disturbing it says that, ``In May of 2005, the 
State Department denied a Treasury official entry into a 
priority country to help set up an FIU, a Financial 
Intelligence Unit, at the Central Bank's minister's request. 
State officials told us because the country had been designated 
as a priority country after Treasury began preliminary work 
there, State wanted to conduct a TFWG assessment before 
allowing Treasury to continue its work. At the U.S. Embassy's 
request, State delayed the assessment and Treasury's work 
proceeded but the Treasury official's entry into the country 
was delayed several months.''
    That gives me a reason for grave concern about the 
cooperation and what is going on with these turf wars. What the 
heck is going on here if the State Department is not allowing 
Treasury to go into a certain country, and where we all know, 
Madam Chairwoman, that these FIU's are extremely important to 
have them established. Until we have them up and running and 
there is some cooperation within these governments, these 
fallen governments, they are tough enough to get anyway. It 
just frustrates me greatly that even though we had an agreement 
from the host agreement, the priority country, to set up an 
FIU, the State Department is blocking Treasury from going in 
and setting it up? I guess I have higher expectations of both 
Treasury and State in this matter. I am going to ask these 
folks when they come up what is going on here but I would like 
to have your impression as well?
    Mr. Walker. We did provide at least one example of where, 
because of the lack of understanding between the agencies 
regarding their respective roles and responsibilities and what 
it meant to be the lead, there was at least one occasion where 
assistance was not provided in a timely manner. Now, I am sure 
there are many other occasions where they did not have a 
problem, but there have been some where there has been a 
problem. I think it comes back to what we said before, what 
does it mean to be the lead? What is the understanding as to 
the different roles and responsibilities of these 
organizations? What are the agreed upon rules of procedure that 
they are going to operate under and as long as they operate 
under those procedures, you FYI somebody as to what you are 
doing. You do not get approval for what you are doing. After 
you have the strategic and integrated plan, after you have the 
Memorandum of Understanding or Agreement with those rules of 
engagement or rules of procedure, then how can you facilitate, 
not control, how can you facilitate people being able to get 
things done quicker? So it goes back to our recommendations, 
and I would respectfully suggest, Mr. Lynch, that you may want 
to ask the directly responsible parties about this matter and 
how pervasive this may or may not be.
    Mr. Lynch. Thank you. Madam Chairwoman, I expect that type 
of difficulty and that type of resistance in dealing with a 
foreign country but it is unacceptable when it is our side. It 
is the U.S. Government, just different Departments of our 
Government having that type of difficulty. It really compounds 
the problem greatly.
    Mr. Walker. Candidly, as we all know, when you have a large 
organization, and the U.S. Government is a very large and 
complex organization, that has a number of different 
Departments and agencies and layers and players, this is not 
the only area in which we have had difficulty in coordinating. 
At the same time, when you are dealing with safety and 
security, which is the most fundamental, in Maslow's hierarchy 
of needs, it is the foundation that is the most important thing 
that everybody is concerned with, we need to find a way to be 
able to combat bureaucracy and get things done quicker.
    Mr. Lynch. Mr. Walker, in the last segment of your report, 
you talked about the lack of a measurement tool with regard to 
performance. And you mentioned that back in July of 2005, that 
the database and the software that had been recommended had not 
been implemented at that point. Has it since been adopted?
    Mr. Walker. Mr. Yager tells me that it has been promised 
but not delivered based upon the latest information that we 
have.
    Mr. Lynch. Okay, I think the Justice Department had a 
database that they recommended for measuring progress. Can I 
ask you is it functional or are we still talking?
    Mr. Walker. If you do not mind, Mr. Yager can.
    Mr. Lynch. Yes, I am fine with that. I am sorry, sir, what 
is your name again?
    Mr. Yager. My name is Loren Yager. I am a Director in GAO's 
International Affairs and Trade Group.
    Mr. Lynch. Okay, thanks for coming, thanks for your help.
    Mr. Yager. Thanks for your question. The issue that we 
raised, really there were two parts to your question, the first 
had to do with the performance indicators of OFAC and we did 
take a look to see whether those were in place and we asked 
numerous times before this hearing to try to find additional 
information regarding the status of that plan and their 
development of additional indicators. We have not received any 
indication that they do have a detailed plan worked out which 
would provide the kind of oversight that the Comptroller 
General has mentioned, the kind of indicators that demonstrate 
progress, and, frankly, to help resolve some of the disputes 
that may have been going on.
    Mr. Lynch. Okay, and last question, have they given you 
sort of a score card, State and Treasury, TFWG, or a country-
by-country analysis of where we are in terms of our progress in 
either getting an FIU up and running or getting cooperation 
from the host government?
    Mr. Walker. We do not have that. It is something they may 
have but we do not.
    Mr. Lynch. Okay.
    Chairwoman Kelly. Thank you, Mr. Lynch.
    Mr. Lynch. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Kelly. Mr. Scott.
    Mr. Scott. Thank you very much, Madam Chairwoman. Mr. 
Walker, again thanks for appearing before the committee. As I 
mentioned earlier in my opening remarks, there is just so much 
at stake here. Every time an American gets on an airplane, goes 
into a mass meeting, or even comes out of his home now, there 
is a certain amount of fear. We have to show the American 
people that they are safe, and we are not doing that. And it is 
just ironic that the major reason is that apparently folks in 
the State Department think it is about them or folks in the 
Justice Department think it is about them. I want to ask you, 
first of all, about the report. In your testimony, your key 
recommendation, as I understand it, is that Congress require 
State and Treasury to submit an annual report to Congress 
showing how these Agencies have developed and implemented a 
strategic plan and a Memorandum of Agreement or Understanding. 
Take me through each of the Agencies and tell me why they are 
fighting you on this. Go ahead on that first point.
    Mr. Walker. First, I do not know if they are fighting us. 
The issue is, is it for the Executive Branch, and as you know, 
we are in the Legislative Branch. The Executive Branch needs to 
have a strategic and integrated plan to clarify what leadership 
means, who is responsible for what. One that has some metrics 
to be able to assess how you are doing and to be able to use 
that information as a basis for the annual report to the 
Congress. Information that we would be able to also take a look 
at and provide information for your benefit. So I think the key 
is you might ask them why they did not specifically address our 
recommendation on having a strategic and integrated plan, on 
executing a Memorandum of Agreement or Memorandum of 
Understanding, and other issues that were not directly 
addressed in their letter. I do not want to respond for them. 
They are in a better position to say why they did not respond.
    Mr. Scott. Well, we will get to them but right now we only 
have you, so I have to ask you these questions because it is 
apparent that the problem is a lack of coordination or a lack 
of cooperation in terms of your recommendations with Justice 
and with the Treasury Department. Now, just according to your 
report, much of the dispute seems to be coming from the 
Departments of State and Treasury. Can I get a yes or no from 
you on that?
    Mr. Walker. That is correct. State is designated as the 
lead. There is a difference of opinion between State and 
Treasury as to what that means. And some of the challenges that 
we have seen, including the one that Mr. Lynch mentioned, had 
to do with a difference of opinion between State and Treasury.
    Mr. Scott. Over turf, would you say that is the dispute?
    Mr. Walker. Over what the State Department's role and 
responsibilities are as being lead in this area, as to whether 
or not they are supposed to coordinate and facilitate or 
whether or not they are supposed to control and direct.
    Mr. Scott. Okay, very good. Now, how would you categorize 
the Justice Department's participation?
    Mr. Walker. I would ask Mr. Yager to comment on that.
    Mr. Scott. Yes.
    Mr. Yager. We directed our recommendation to the State 
Department and to the Department of the Treasury primarily 
because those are the two Agencies that have funding to perform 
the training and technical assistance. Justice does perform 
some training and technical assistance abroad, but they do that 
through the funds that are provided by one of those two other 
agencies. So in our recommendation we included this, and we 
directed it primarily at State and Treasury because they have 
the funding. We certainly believe that other agencies, like 
Justice in addition with the support of the NSC, should be 
involved in developing that plan. But because those were the 
two agencies with funding, we thought it was appropriate to 
direct our recommendation to them.
    Mr. Scott. Okay, now, let me ask you this about the 
interagency Terrorist Financing Working Group, just give me a 
brief explanation of that group, what it is composed of and 
what its mission is as you understand it?
    Mr. Walker. First, we have a board that we can put up that 
shows you the composition of that group. And, Mr. Yager, if you 
could explain that board.
    [Chart]
    Mr. Yager. This is a group, as you can see from the board, 
that contains a large number of members from within the key 
agencies. Given the importance of tracking and trying to combat 
and prevent financing from going to terrorists, the TFWG was 
created in order to bring all the groups together that have 
some role. The State Department chairs that TFWG through two of 
its sub-units. Of course, there are members of that group from 
Justice, from Treasury, as well as other Departments around. 
This is the attempt by the U.S. Government to get the right 
people into the room to talk about how progress can be made, 
not just on training but on a variety of other issues related 
to terrorist financing.
    Chairwoman Kelly. Excuse me, but I would like to just 
simply point out that there is a copy of that chart in your 
packet in front of you. So if you cannot see the board, at 
least you can get it in paper in your hand and get it up close 
so you can read it.
    Mr. Scott. Thank you.
    Mr. Walker. It is also in our testimony. If I can, Mr. 
Scott, let me come back at your first question. With regard to 
our recommendations for an integrated and strategic plan, with 
regard to our recommendations to clarify roles and 
responsibilities through a MOA and rules of procedure, and with 
regard to having metrics to measure how you are doing, I would 
say that is Management 101. If you want to maximize value and 
mitigate risks, by the way in this area there will never be 
zero risk, we will never be 100 percent safe, that is 
impossible. But what we need to do is target the resources and 
authorities that we have, which comes back to the thrust of our 
recommendation. Frankly, it applies in virtually every area of 
Government, it is even more critical when you are dealing with 
safety and security.
    Mr. Scott. Thank you very much.
    Chairwoman Kelly. Thank you, Mr. Scott. Mr. Cleaver.
    Mr. Cleaver. Thank you, Madam Chairwoman. At the last 
meeting, Ranking Member Barney Frank had asked for some 
information that was promised to the committee. Has that been 
forwarded?
    Mr. Walker. I was not here, so I will ask Mr. Yager.
    Mr. Yager. We did take a look at the hearing record and the 
discussion; we did not get a copy of the answers that might 
have been provided by the Agencies. So our most recent 
information that we worked off for the statement were the 
responses to our recommendations that were provided. We call 
them the 60-day letters. They were provided to the Chair of the 
appropriations committees, as well as the oversight committees. 
And that is the most recent information that we are working off 
of.
    Mr. Walker. Stated differently, as you know, statutorily 
the Agencies are required by law to respond within 60 days 
whether, and to what extent, they are going to adopt our 
recommendations. If Mr. Frank has additional information that 
has been provided by the Departments and Agencies, we have not 
been provided that. But if he does provide that to us, we would 
be happy to take a look at it.
    Mr. Cleaver. All right, I will pass that along to him. I 
did not know if he had been here, I came in late. But my number 
one question and concern is, as you know, we just raised the 
debt ceiling--well, not ``we,'' I voted against it, but we are 
headed toward $9 trillion. We are borrowing money as if we can 
actually get out of debt by borrowing. And we do not seem to 
understand what you do not owe will not hurt you. But where we 
are now is we are borrowing a lot of money from a lot of 
different places. Some money we are borrowing--the top three, 
Japan, China, and the UK, that is 40 percent of our debt, which 
is owned by foreign republics. Two-thirds of that is with China 
and Japan. But we also owe OPEC almost $20 billion. Is it 
possible that we are inadvertently financing terrorists because 
of the debt we are wallowing in and continuing to go to foreign 
countries to pay for the operation of the U.S. Government?
    Mr. Walker. I do not think that we are inadvertently 
funding terrorists. I will say this, this country has three 
major financial deficits. We have a budget deficit. Last year, 
$760 billion on an accrual basis, a 35 percent negative bottom 
line, the worst in the history of the United States.
    Mr. Cleaver. $435 in this budget coming up, but go ahead.
    Mr. Walker. Well, that is on a cash basis. On an accrual 
basis, it is much worse than on a cash basis. Secondly, we have 
a balance of payments deficit, which includes a trade deficit. 
And now the percentage of our debt held by the public--that is 
held by foreign players is up to about 50 percent. Over 90 
percent of the new debt that we have issued within the last 
several years has been purchased by foreign players, which 
means that we are increasingly turning over part of our 
mortgage to foreign players who may or may not share the same 
economic, foreign policy, and national security interests as 
the United States. And one of the reasons we have done that is 
because of our third deficit, we have a savings deficit. The 
United States is great at spending and poor at saving. Last 
year for the first time since 1933, the depth of the 
Depression, Americans spent more money than they earned. We had 
a negative personal savings rate and the U.S. Government did 
too. So we are on an imprudent and unsustainable fiscal path. I 
would respectfully suggest the biggest threat to the future of 
the United States is our fiscal irresponsibility.
    Mr. Cleaver. That is exactly where I am going. Americans, 
if they understood this, would tremble at what we are laying 
out for our children and our grandchildren. And Asian markets 
are holding enough U.S. Treasury notes or U.S. assets, they 
could buy a controlling interest in almost every company being 
traded on Wall Street. And we cannot fight terrorism and ignore 
the debt and the fact--Asians have a 20 percent savings rate, 
ours is zero, negative zero. I think this is chilling.
    Mr. Walker. The last thing that I would say on this is it 
is pretty simple, the more of our debt that is held by foreign 
players, the less leverage we have on those foreign players, 
and the more leverage they have on us. It is that simple.
    Chairwoman Kelly. Mr. Walker, just because the issue of the 
debt was brought up, do you have the percent of U.S. debt with 
regard to the GDP, the U.S. GDP? Isn't that around 32-, 35 
percent?
    Mr. Walker. That is only for debt held by the public. If 
you add up debt held by the trust funds, which are Social 
Security and Medicare, which we have already spent that money 
in other Government operating expenses, you can roughly double 
the percentage of GDP. And so it depends upon whether you are 
just talking about debt held by the public or total debt. If 
you take the $8.1 trillion, we were at about $8.1 trillion, the 
economy is what, $11 trillion to $12 trillion, the total debt 
is about $8.1 trillion. And Congress just authorized taking it 
up to about $9 trillion. By the way, I would respectfully 
suggest that we need to raise the debt limit because otherwise 
we will default. We have to get serious about the deficit and 
we have not yet.
    Chairwoman Kelly. Just out of curiosity, how does that 
compare, how does the U.S. figure with GDP compare to a country 
like Japan?
    Mr. Walker. Japan has higher debt than we do. I would be 
happy to provide for the record information on this from the 
latest report that was issued by the Organization of Economic 
Cooperation and Development, which were 30 major industrialized 
nations, including the United States and Japan. I will provide 
information for the record as to where debt as a percentage of 
GDP stands.
    Chairwoman Kelly. I think we are a little off target here. 
It is just that it was brought up and it is an interesting way 
that the figures seem to move around. It is hard to grab hold 
of them. The last I heard the Japanese debt was 170 percent of 
their GDP. So I think that it is very difficult to figure out 
where all these things land. So any information you can give 
us, we would be very grateful for. Mrs. Wasserman-Schultz.
    Mrs. Wasserman-Schultz. Thank you, Madam Chairwoman. In the 
background information that I have looked at, State does not 
apparently agree with your recommendation to develop and 
implement an integrated strategic plan. They say that a series 
of NSC documents and State's Office of the Coordinator for 
Counter Terrorism's Bureau Performance Plan served that 
purpose. Could you describe for us how the documents that State 
describes and their own internal office differ from what GAO 
recommended and how what they are suggesting would work falls 
short of this goal?
    Mr. Walker. That plan does not clearly and unambiguously 
lay out the relevant roles and responsibilities. That plan does 
not have key metrics in order to be able to assess performance. 
Those are two of the major elements that are not addressed in 
that plan.
    Mrs. Wasserman-Schultz. Thank you. And in page 9 of your 
testimony, you mention that senior Treasury officials strongly 
disagree with State's degree of control over TFWG decisions and 
that State creates obstacles rather than coordinating efforts. 
And that is a serious disagreement. How can we more clearly 
define State's role?
    Mr. Walker. My view is that if they cannot handle it 
themselves, then the Congress can end up legislating in this 
area, and you should be prepared to do that if the Executive 
Branch cannot deal with it within a reasonable period of time. 
I am hopeful that they can and I am hopeful that they will. But 
the Legislative Branch has quite a bit of power under our 
Constitution.
    Mrs. Wasserman-Schultz. And, lastly, I guess I am still all 
right on my time, I have also reviewed the dispute over the use 
of contractors between the agencies. Treasury is working to 
resolve its differences with State on the use and role of 
contractors. The reason for the dispute is really 
understandable. I can understand that using contractors rather 
than direct employees would compromise confidentiality and that 
it seems to warrant clarity. Can you talk about what procedures 
we should be establishing for needs assessment and other 
disagreements between the agencies that you outlined and how we 
can resolve that because it seems like a really necessary 
element to fix?
    Mr. Walker. I will start, and I will ask Mr. Yager to 
provide some more details. First, it is understandable that 
reasonable people might disagree on whether and to what extent 
you should use contractors for certain types of functions and 
activities. I am a substance over form individual. Merely 
because somebody is a contractor does not, per se, mean that it 
is a problem. You have to look at who is that contractor? What 
is the nature of the contractor? Is it a person who has the 
requisite security clearances, who is a former employee of the 
Treasury Department or the State Department or the Defense 
Department or one of the intelligence agencies? That would be 
substantively different obviously than if it is another type of 
entity or individual who might not meet those criteria. So I 
think it is something that needs clarity. It is something that 
we ought to try to provide a reasonable degree of consistency 
on, but I would respectfully suggest we need to have certain 
principles or safeguards that we would operate rather than 
saying yes or no you should or should not ever use contractors. 
Loren?
    Mr. Yager. Let me just make one brief addition. I think it 
also suggests why performance measures are so important because 
it is difficult to make these systematic decisions on the basis 
of anecdotal information about either successes or failures in 
the efforts to combat terrorist financing or provide that 
training. So we think with a solid set of performance 
indicators, it will be much easier for the Agency to work 
together and say we have had success using these types of 
contractors or others and here is our proof of that success. We 
believe this is a type of effort, for example, that might go 
forward. Without those performance measures, it becomes quite 
difficult to make those decisions on a systematic basis.
    Mrs. Wasserman-Schultz. Madam Chairwoman, as someone who 
comes from a State that has widespread use of performance 
measures with regular legislative oversight, I can completely 
agree that is an effective means of ensuring that we have a 
policy that is implemented effectively, and it also provides 
clarity, so I would completely agree with you.
    Thank you. I yield back the balance of my time.
    Chairwoman Kelly. Thank you very much. Senator Grassley had 
intended to come and testify before the committee today. His 
schedule, unfortunately, was not able to permit him to be here 
but with unanimous consent, I will insert Senator Grassley's 
full statement in the record.
    And, Mr. Walker, we thank you very much for your testimony 
today. And with that, this panel is excused.
    Mr. Walker. Thank you.
    Chairwoman Kelly. While that panel is leaving, I would 
appreciate it if the second panel would take their seats.
    We welcome the second panel. And without objection, your 
full statements will be made part of the record. Our first 
speaker is William Larry McDonald, from the U.S. Treasury. He 
is the Deputy Assistant Secretary for Technical Assistance 
Policy. He oversees the program that provides assistance to 
approximately 70 countries in Central and Eastern Europe, the 
former Soviet Union, the Middle East, Africa, Asia, and Latin 
America. We appreciate your being here today, Larry, and thank 
you very much for being here.
    Our second panelist is Mr. Gerald--I am going to pronounce 
it wrong--Feierstein, I should guess that ``ei,'' Feierstein. 
Mr. Feierstein here with the State Department in Washington. He 
has previously served as the Desk Officer for Nepal, Pakistan, 
and Egypt, as Deputy Director in the Office of Arabian 
Peninsula Affairs, and Director of the Office of Pakistan and 
Afghanistan and Bangladesh Affairs, and the Office of Regional 
Affairs in the Near East Bureau.
    Our third panelist is Mr. Barry Sabin from the Justice 
Department. He presently serves as the acting Deputy Assistant 
Attorney in the Criminal Division of the Justice Department in 
Washington, D.C. Mr. Sabin started in that position in January 
of 2006 and is responsible for overseeing the Counter Terrorism 
Section, Fraud Section, Criminal Appellate Section, and Capital 
Crimes Unit. We thank you very much, Mr. Sabin. We thank all 
three of you for being here, and we look forward to your 
testimony. And we will begin with you, Mr. McDonald.

     STATEMENT OF WILLIAM LARRY MCDONALD, DEPUTY ASSISTANT 
SECRETARY, TECHNICAL ASSISTANCE POLICY, U.S. DEPARTMENT OF THE 
                            TREASURY

    Mr. McDonald. Chairwoman Kelly, Ranking Member Gutierrez, 
and members of the committee, I very much appreciate this 
opportunity to speak to you today about the GAO's report on 
U.S. efforts to deliver training and technical assistance 
abroad to combat terrorist financing. I would also like to 
express my appreciation for the leadership, commitment, and 
support that you bring to combating terrorist financing.
    In my written testimony for the record, I have given a 
detailed description of the Treasury Department's technical 
assistance program and Treasury's role in the interagency 
process. I have also provided a number of examples of 
Treasury's technical assistance that illustrate our track 
record in this area over the last several years. In my oral 
remarks, I will focus on the issues that you asked me to 
address in your invitation letter.
    First, I want to confirm at the outset that the Treasury 
Department does accept the State Department's lead role in this 
area. If I accomplish nothing else today, I hope to put this 
one to bed. The State Department indeed has a mandate to lead 
the interagency effort, to prioritize, and de-conflict capacity 
building programs in the area of terrorist financing. Given its 
broad foreign policy mandate, the State Department is well-
positioned institutionally to play this role.
    And, if I may add, the interagency effort is well served by 
the leadership and the right kind of leadership of my 
colleague, Mr. Feierstein. He brings experience, 
professionalism, and skill in weighing the many factors that 
have to be considered in reaching difficult judgments on issues 
that do not lend themselves to a simple or straightforward 
calculation. He is a facilitator, and here I am referring back 
to the remarks by the Comptroller of the GAO; he is a 
facilitator. He is a consensus builder. He is not a control 
freak. And the same goes for my other colleague on the panel, 
Mr. Sabin. Since assuming my position as Deputy Assistant 
Secretary in December of 2005, I have gotten to know Mr. 
Feierstein, Mr. Sabin, and others involved in the interagency 
process, and I could not be more pleased about our 
collaboration.
    Regarding the procedures and practices of the interagency 
group, I would like to confirm that Treasury does accept them. 
These procedures are essential to help ensure an orderly, 
coordinated process in a complex area involving many 
participants. At the time the GAO report was prepared, there 
were Treasury officials who honestly felt that the procedures 
and practices would benefit from greater flexibility in their 
application--shock absorbers, if you will--to help us get over 
the occasional bump in the road and improve our effectiveness. 
I am pleased to tell you that a number of structural and 
operational changes have indeed been made over the past several 
months that have enhanced the effectiveness of the interagency 
group and the interagency process more broadly.
    First, the interagency group is now chaired at a more 
senior level. I have already noted Mr. Feierstein's role in 
that regard. Second, the procedures and practices of the 
interagency group have been fine-tuned in a way that allows for 
greater flexibility. In particular, I welcome the increased 
openness to conducting so-called ``table top'' assessments of a 
country's assistance needs here in Washington, rather than 
conducting a full-blown in-country assessment. In certain 
cases, where sufficient information is available, this option 
provides flexibility that can expedite our work and marshall 
scarce resources. Third, the reconstitution of the Training and 
Assistance Sub-Group is a welcome enhancement of the 
interagency process. It brings together agencies providing 
technical assistance in all areas related to combating 
terrorism and serves as a useful forum for addressing any 
differences that cannot be resolved at the staff level.
    Madam Chairwoman, the GAO report gave considerable 
attention to the third party contractor issue, and I know that 
this is a matter that interests the committee, so let me say a 
bit about that. First, I would like to clarify that Treasury's 
advisors work under personal services contracts, not third 
party contracts, and are individually selected by Treasury 
management. They become for a time Treasury Department hires 
and are fully integrated members of Treasury's technical 
assistance family. I believe that Treasury, Justice, State, and 
other Agencies agree that such contractors can play an 
important complementary role in the area we are discussing 
today. Contractors with the requisite experience and expertise 
can complement the limited number of U.S. Government officials 
available to address the enormous need for technical 
assistance, especially when long-term assistance rather than 
short-term assistance is what is needed. The ability to deploy 
expert long-term personal services contractors is one of the 
special features and strengths of Treasury's program. I do not 
mean to suggest by this that such contractors are a substitute 
for U.S. Government officials in all matters. Contractors 
cannot and do not provide assistance in certain areas that are 
appropriately reserved to U.S. Government officials.
    If I may, I would like to make one other observation about 
the issue of contractors. The term ``contractors'' conjures a 
number of different images, I think our colleague from the GAO 
alluded to this. When I took this job, I learned that personal 
services contractors make up the backbone of Treasury's 
program. And I made it my business to meet with them, learn 
about their backgrounds, and get to know them. What I have 
learned about them has been more than reassuring, it has been 
inspiring. Treasury's financial enforcement advisors consist 
primarily of retired assistant United States attorneys and 
agents from the FBI, former agents from the Criminal 
Investigation Division of the Internal Revenue Service, former 
regulators and examiners from the Federal Reserve, the FDIC and 
the OCC, former agents of the U.S. Customs Service, the 
Immigration and Naturalization Service, the Financial Crimes 
Enforcement Network, and the Drug Enforcement Administration.
    In the first days following the tragedy of 9/11, these 
former officials came forth in droves asking simply, ``How can 
I help?'' There are certain things they should not, and will 
not do, but they can and do make a valuable and, I would argue, 
indispensable, contribution. They are a source of intellectual 
capital and greatly and flexibly strengthen our human resource 
base. I assure you there is no finer, more qualified or 
dedicated group of men and women. And their dedication is 
producing results. The work of these advisors has resulted in 
the removal of eight countries from FATF's blacklist of non-
cooperative countries and territories and the creation of 
Financial Intelligence Units in a number of other countries.
    Finally, Madam Chairwoman, my invitation letter asks that I 
note any recommendations that Treasury may have based on the 
GAO report. My recommendation, and this is a recommendation I 
make to myself as much as anyone else, is to treat the GAO 
report as a catalyst for self-scrutiny, to consider what has 
worked well over the past several years and what needs 
addressing, and to make any adjustments in light of that.
    Madam Chairwoman, that process is well underway, and, I 
think my co-panelists would agree, will continue. That 
concludes my statement, and I will be happy to take any 
questions at the appropriate time.
    [The prepared statement of Mr. McDonald can be found on 
page 60 of the appendix.]
    Chairwoman Kelly. Thank you, Mr. McDonald.
    Mr. Feierstein.

   STATEMENT OF GERALD M. FEIERSTEIN, DEPUTY COORDINATOR FOR 
   PROGRAMS AND PLANS, OFFICE OF THE COORDINATOR FOR COUNTER 
              TERRORISM, U.S. DEPARTMENT OF STATE

    Mr. Feierstein. Chairwoman Kelly, Congressman Gutierrez, 
and members of the committee, thank you for the opportunity to 
speak to you today about interagency cooperation on combating 
counter-terrorism financing and providing international 
training and assistance since the terrorist attack of September 
11, 2001.
    That tragedy changed the way the U.S. Government approached 
terrorist financing. We have worked to create and implement 
programs that enhance the capacity of key partner nations to 
detect, disrupt, and dismantle global terrorist financing 
networks. Our objective is to deny financial safe havens to 
terrorist organizations and their supporters. Together, we are 
building sustainable, dynamic, anti-money laundering, and 
counter-terrorist financing regimes, and implementing effective 
programs in the legal, financial, law enforcement, and judicial 
fields. Improving the capability of our partner nations to 
combat terrorist financing significantly enhances our own 
ability to detect and isolate terrorist financiers and follow 
the money, right to where it links global terrorists to their 
support networks.
    In pursuit of this goal, the interagency created the Terror 
Finance Working Group in October of 2001 to leverage existing 
anti-money laundering expertise across the U.S. Government and 
to develop specific CT finance capacity building programs. Co-
chaired by the State Department's Office of the Coordinator for 
Counter Terrorism and the Bureau for International Narcotics 
and Law Enforcement Affairs, this interagency forum brings 
together the Departments of Treasury, Justice, and Homeland 
Security, independent financial regulatory agencies, and the 
law enforcement and intelligence communities.
    This interagency working group has achieved a notable 
record for its efforts. We have provided CT finance and anti-
money laundering assistance for over 1,850 foreign counterparts 
in over 18 priority countries. A number of countries have 
either adopted new legislation to shut down terrorist financing 
or are in the process of doing so. Our assistance has led to 
the arrest and conviction of terrorists in Southeast Asia and 
the Middle East, as well as the conviction and subsequent 
designation of a terrorist fundraiser in the Middle East. Our 
training has enabled other Middle East partner nations' law 
enforcement agencies to identify and take action against 
several Al Qaeda cell members. Additional specific examples of 
the record are provided in my written testimony submitted for 
the record.
    Nevertheless, all interagency mechanisms are subject to 
constant review and revision and may be altered at any time. We 
have taken measures following the GAO's report to strengthen 
interagency coordination and enhance the development and 
delivery of CT finance foreign assistance programs. 
Specifically, we have elevated the leadership of the Working 
Group to the Deputy Assistant Secretary level. Another change 
was the resuscitation of the Training and Assistance Sub-Group, 
TASG, led by the coordinator for Counter Terrorism at the State 
Department. The Terrorist Finance Working Group now reports to 
this body. Should any issue arise that cannot be worked out by 
the members of the Working Group, something that has not 
occurred since I assumed duties as co-chair in January, it is 
referred to the TASG for resolution.
    Also, in response to the GAO report, we have dedicated 
resources at the Department of Justice Office of Overseas 
Prosecutorial Development Assistance and Training, OPDAT, to 
measure the effectiveness of our counter-terrorism financing 
and anti-money laundering programs. OPDAT measures the basic 
elements of an effective counter-terrorism financing and anti-
money laundering regime for each country that has received U.S. 
foreign assistance in this area.
    In addition, we analyze what type of practical impact our 
training programs have had on the ground. With this system, we 
hope to determine how and where our capacity building programs 
have had the most impact and how we can improve and apply them 
in other countries.
    Members of the Working Group agree on each other's 
respective roles. We agree that the State Department chairs the 
Working Group and coordinates training and technical assistance 
abroad for priority countries. Given its expertise in the area, 
we support the Justice Department's lead role in prosecutorial 
and judicial assistance matters, including drafting anti-money 
laundering and CT financing legislation. We support the 
Treasury Department's lead role in providing financial 
regulatory assistance and Financial Intelligence Unit 
development and implementation of targeted financial sanctions. 
We support the Department of Homeland Security's lead role in 
providing training to combat illicit cash couriers.
    In closing, we have made substantial progress since 
September 11, 2001. We have developed a broad and strong 
international coalition against terrorist financing. We have 
supported development of laws, regulations, and regulatory 
institutions, as well as trained intelligence and law 
enforcement officials around the world to combat terrorist 
financing and money laundering. We are opening, cultivating, 
and strengthening dialogues and relationships with foreign 
counterparts in vulnerable regions as a means of strengthening 
their counter-terrorism financing regimes. As a result, we have 
made it harder for terrorists and their supporters to use both 
formal and informal financial systems.
    Chairwoman Kelly, Congressman Gutierrez, and members of the 
committee, our work is far from done. As we continue to fight 
on this and other fronts in the war on terror, we face a 
resilient, adaptable, and ruthless foe, and must constantly 
anticipate and help countries all over the world prepare for 
the next move before it happens. Terrorists and terrorist 
tactics are evolving and persisting, and so must our efforts. 
Key to our continued success in tackling terrorist financing is 
strong, effective U.S. interagency coordination.
    Chairwoman Kelly. Mr. Feierstein?
    Mr. Feierstein. Yes, ma'am.
    Chairwoman Kelly. Your red light has been on for some time 
and since we are going to be called for a vote shortly, I would 
ask you to sum up, please?
    Mr. Feierstein. Ma'am, I only had one more sentence. 
Therefore, we must continue to pool our expertise and resources 
in order to continue to realize real success in the future.
    I look forward to taking your questions. Thank you.
    [The prepared statement of Mr. Feierstein can be found on 
page 51 of the appendix.]
    Chairwoman Kelly. Thank you.
    Mr. Sabin?

STATEMENT OF BARRY M. SABIN, DEPUTY ASSISTANT ATTORNEY GENERAL, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Sabin. Chairwoman Kelly, distinguished members of the 
subcommittee, I appreciate the opportunity to discuss the issue 
of the Government Accountability Office's report on terrorist 
financing and the Department of Justice's successful 
involvement in this cooperative effort to provide counter-
terrorism financing training and technical assistance abroad.
    The Department of Justice plays a critical role in the 
delivery of training and technical assistance to our 
international partners. Justice plays a central role in this 
arena, in concert with the Departments of State, Treasury, and 
Homeland Security, even though the Justice Department does not 
receive direct appropriations from Congress to provide training 
and technical assistance to combat terrorist financing abroad. 
Consequently, we respectfully disagree with the GAO's 
recommendation that the Departments of State and Treasury enter 
into a formal Memorandum of Understanding, without 
participation of the Department of Justice, to develop a 
training and technical assistance delivery plan.
    Justice and its interagency partners do not believe that 
such a Memorandum of Understanding is necessary or appropriate. 
More fundamentally, such a recommendation highlights our basic 
concern with the GAO report, that it overlooks the valuable 
contribution of the Justice Department and others, including 
DHS in providing legal training and assistance to combat 
terrorist financing and money laundering around the world. We 
also provide essential input to the fundamental interagency 
decisionmaking process of prioritizing and strategizing the 
delivery of technical assistance and training. Such input helps 
ensure that the training and technical assistance plan is 
consistent with other Department and Administration counter-
terrorism initiatives. In addition, excluding the Department of 
Justice would deprive DOJ of one of the critical byproducts of 
technical assistance--the building of long-term operational 
relationships which are critical to facilitating international 
cooperation.
    It is axiomatic that in providing terrorist financing and 
technical assistance to our most vulnerable partners in the war 
on terror, the U.S. Government should be represented by its 
most highly skilled and knowledgeable experts. In 2002, the 
Administration determined that the Department of Justice should 
be the Agency primarily responsible for training and technical 
assistance concerning our core areas: legislative drafting and 
training of prosecutors and judges in priority countries. DOJ 
assistance helps governments that are vulnerable to terrorist 
threats to draft legislation which criminalizes money 
laundering and financial and other material support to 
terrorists. DOJ also provides technical assistance and training 
to help such governments implement and enforce these laws.
    DOJ remains firmly committed to interagency efforts to 
ensure that priority and vulnerable countries receive 
substantive training and technical assistance from the most 
qualified experts that the U.S. Government has to offer.
    Preventing terrorist attacks and protecting our Nation is 
the top priority at the Justice Department. Aggressive 
investigation and prosecution of terrorist threats and 
activity, including terrorist financing and all other manner of 
providing material support to terrorists, is a principal means 
to achieve this end.
    As a result of our ongoing involvement in this rapidly 
changing area and our commitment to this objective as a first 
priority, Justice Department lawyers and investigative agents, 
both in Washington and in the field, have extensive experience 
in this area. The Department of Justice delivers approximately 
half of the anti-money laundering terrorist financing 
assistance to priority countries, acting either individually or 
in combination with our partners.
    The Department has participated in the interagency process 
since its inception. The interagency process provides a forum 
for candid discussions and strategic planning for delivering 
appropriate assistance. Consensus is reached in this forum to 
ensure our international partners receive the guidance 
necessary for them to build strong counter terrorist financing 
regimes. Through this process, the U.S. Government ensures that 
we take a holistic approach, avoid duplication, and prevent 
redundant delivery of previously provided assistance.
    In my written statement, I provide specific examples of 
countries which illustrate the assistance we have rendered in 
this field and the long-term gains it has yielded for the 
recipient countries and the international community. The 
Department is proud of its role in equipping other countries 
with the legal tools necessary to combat terrorist financing 
and money laundering, but we realize that there remains work to 
be done.
    Thank you for providing me the opportunity to discuss these 
important issues with you today. The Department of Justice 
looks forward to our continued role in the interagency process 
to deliver and develop effective anti-money laundering and 
counter terrorism financing training and technical assistance 
and to benefit from the goodwill, personal relationships, 
understanding of our international partners, and tangible 
operational benefits that result from our crucial role in 
providing that assistance. We are committed to working with our 
peer agencies to develop a comprehensive and integrated 
training and technical assistance program abroad. We each have 
our areas of expertise, and we believe that a unified, yet 
delineated approach, to the global problem of terrorist 
financing will result in success that is effective and 
enduring.
    Thank you.
    [The prepared statement of Mr. Sabin can be found on page 
67 of the appendix.]
    Chairwoman Kelly. Thank you very much, Mr. Sabin. Mr. 
McDonald, you said that you are very pleased with the 
cooperation that you have with State. The GAO sat here and said 
it is not working. As a matter of fact, in the letter that was 
sent to Chairman Oxley about this, and in the comments from the 
GAO as of your response involving State, and I quote from page 
72 of their report, ``As Treasury states, they believe that 
State's role is limited to coordination for priority countries 
and does not accept State's position that it leads all U.S. 
training and technical assistance efforts to vulnerable 
countries, not just priority countries.'' Now, this is exactly 
what I believe we heard this morning. Who is the lead?
    Mr. McDonald. State Department is the lead.
    Chairwoman Kelly. Well, then if the State Department is the 
lead, sir, then you are going to have to accept what you 
apparently have rejected here in this statement.
    Mr. McDonald. And I do. The information in the statement 
that you are reading from reflected the perspectives of 
Treasury officials who were reacting to a situation that they 
observed or they perceived at that time. And, as I think all of 
us have tried to explain today, a lot of water has flowed under 
the bridge since then and a number of clarifications and 
strengthening of the process have taken place. And I do believe 
that the Treasury Department and the State Department are 
completely on the same page with respect to the role of the 
lead agency, and it is the State Department for those 
countries.
    Chairwoman Kelly. Then why is the NSC reviewing it?
    Mr. McDonald. Why is the NSC reviewing what?
    Chairwoman Kelly. Reviewing the cooperative effort that is 
talked about here in this report, and certainly Chairman Oxley 
had some questions here. It says that, ``NSC, the Departments 
of State, Homeland Security, Justice, and Treasury are 
reviewing the work of the Terrorist Finance Working Group and 
its operating procedures in light of the past 4 years 
experience with a view to making any appropriate updates.'' Why 
are they reviewing it if you have already accepted it?
    Mr. McDonald. What was referred to in that letter, what is 
being reviewed is not only--not particularly the question of 
the lead role. What is being reviewed is the overall set of 
procedures and practices, and the lead role is a subset of that 
question. So we are taking a look at the whole operation in 
light of the GAO's report to assess what we need to do better, 
what we need to adjust.
    Chairwoman Kelly. This GAO report came out in October. 
Everybody has been looking at it and so forth and yet there is 
still no Memorandum of Understanding between the agencies. My 
question is why is that so? Why is there no plan to develop 
metrics for success to make this happen? It is frustrating to 
keep asking for people to review and review and review. There 
is more review here that is talked about in this letter that we 
just discussed. When does the review stop and when do we get a 
Memorandum of Understanding? Are you working on this? I would 
ask both of you. Well, actually all three of you. You too, Mr. 
Sabin.
    Mr. Feierstein. Madam Chairwoman--
    Chairwoman Kelly. Let Mr. McDonald answer.
    Mr. McDonald. I was just going to start by saying that 
there is not a Memorandum of Agreement. My understanding of the 
GAO's thinking in making that recommendation was that it was a 
vehicle, a mechanism for encouraging and ensuring collaboration 
and the sorting out of any issues that there might be between 
Treasury, State, and other agencies about procedures, 
practices, objectives, and how to measure progress toward them. 
We are doing that. We have not waited for a Memorandum of 
Understanding. From the first day that I took my position in 
December, and I am sure that from the first day that Mr. 
Feierstein took his, we have been leaning into that entire set 
of issues. So I believe, this is my view and I will ask for Mr. 
Feierstein to express his, that the Memorandum of Understanding 
is not required for the things that we are already doing.
    Mr. Feierstein. Madam Chairwoman, that was also certainly 
our view and that was the view that we expressed to the GAO, 
both when they initially did their study and also in our 
response to their recommendations, that in fact the Terror 
Finance Working Group is much broader than just State and 
Treasury, that we do believe that we have an agreement in place 
about roles and responsibilities. Those are well understood by 
all of the participants in the Working Group. And, as Larry has 
suggested, we do believe that process is working effectively 
and efficiently now without need of drafting an additional 
agreement. So we think that we have the structure in place, we 
have the understandings in place, and we believe that we are 
moving forward.
    Chairwoman Kelly. As of when did you feel that that 
structure was in place?
    Mr. Feierstein. Ma'am, I started in this position in 
January and that was at a point in which the structures were 
evolving. The Training and Assistance Subgroup had just resumed 
its activities. The decision has been made that we would raise 
the level of the Chair of the Working Group to help facilitate 
and move forward with interagency coordination. And so I would 
say that certainly since the beginning of this year we have had 
in place the structures that we believe are appropriate and 
effective.
    Chairwoman Kelly. That is really not exactly the answer to 
my question, sir. I asked you when you felt this was finished, 
when you felt this comfort level that you spoke of?
    Mr. Feierstein. Ma'am, as I said, I have been on--
    Chairwoman Kelly. I am not asking about the history, I want 
to know within the last month, within the last week, within the 
last 2 weeks?
    Mr. Feierstein. As I said, since the beginning of this 
year, since I started in this position.
    Chairwoman Kelly. From January when you started?
    Mr. Feierstein. Yes.
    Chairwoman Kelly. Mr. Sabin?
    Mr. Sabin. I agree with the Comptroller's remarks that we 
need to have an interagency process that is effective and 
accountable. The vehicle to achieve the delineation of the 
roles and responsibilities, I would suggest is not in a 
formulaic Memorandum of Understanding but in the structure of 
the interagency process in the Working Group, with clearly 
defined roles and responsibilities where people are accountable 
and can articulate our strategic planning in that regard. So to 
exclude Justice, as is recommended in the GAO report, I would 
respectfully suggest, is not the vehicle in which to achieve 
those ends, nor to exclude Homeland Security. There is a 
structure. There is an interagency process in the Terrorist 
Finance Working Group. People understand their roles and 
responsibilities, and we are going forward to ensure that we 
achieve the mission and that we are accountable for achieving 
that mission. But that vehicle to achieve that is not through a 
formal Memorandum of Understanding.
    Chairwoman Kelly. So if I understand what you are saying 
correctly, none of you really feel that you agree with the GAO 
report because you do not feel you need structure to make sure 
that the agencies are discussing and working with each other, 
you think you can do that on your own?
    Mr. Feierstein. Ma'am, we believe that the structure is 
there. The structure is there and the directions from the 
deputies and from the Counter Terrorism Support Group, which is 
chaired by the NSC, the guidance that they have provided to us 
and of course the guidance that we receive from the Training 
Assistance Sub-group. So we think that we have received the 
appropriate structure, the structure is in place, and the 
structure we believe is working effectively.
    Chairwoman Kelly. Mr. McDonald?
    Mr. McDonald. I was thinking about your question about the 
timing when I had this feeling of reassurance, and I remember 
two very precise moments when I felt that. It was in late 
January, I think, when I attended the first meeting of the 
TASG. I accompanied Assistant Secretary O'Brien from TFI. And 
both during that meeting, which was chaired by Ambassador 
Crumpton of the State Department, I felt that there was a real 
sort of center of gravity of leadership in that meeting. And, 
as I was walking back from that meeting with Treasury Assistant 
Secretary O'Brien, we both remarked that we felt like an 
important change had been affected.
    The other time that it struck me was the first meeting of 
the TFWG that I attended under Mr. Feierstein. I think it was 
in early February, so it happened in a couple of steps. And I 
left that meeting feeling like there was a very different 
atmosphere and a different way of doing business. So those are 
the moments when it occurred to me.
    Chairwoman Kelly. Well, then that leads me to the next 
question that I have. I am going to go to the State Department 
first because you came here, the State Department came and 
repeatedly said that the Saudi FIU was operational. When I went 
a year ago to Saudi Arabia, it was not operational. Treasury 
came here and said it is not operational. State came here and 
said it is operational. Was this matter ever discussed with 
what you call the TFWG?
    Mr. Feierstein. Ma'am, I would have to take that question 
and go back, that long pre-dates my arrival on the scene so I 
cannot respond to your question, but I will be happy to ask and 
see if we can get an answer for you.
    Chairwoman Kelly. Mr. Feierstein, I wish you would, please. 
I still feel a great deal of skepticism about how this is 
working, about how it is integrated, and how the chains of 
command are braided together to give us one unified approach 
and understanding of what is happening with regard to terrorist 
financing.
    We have been called for a vote. We have two votes, so I am 
not finished with my line of questioning. I have a couple more 
questions. I am going to, however, recess the committee 
temporarily. I would imagine it would take us--one is a 15 
minute and one is a 5 minute vote, I imagine within that 
timeframe, it will be probably 25 to 30 minutes before we 
arrive back here to be able to continue. Mr. Scott, we will 
keep going with questions when we come back. I thank you very 
much, and I apologize for the interruption but we will be back 
presently.
    [Recess]
    Chairwoman Kelly. Thank you very much for your indulgence 
in our going off to a vote. I would like to resume with the 
line of questioning that I was starting with. I want to go back 
to the question about the issue of the fact that we had 
different statements from different agencies about the state of 
the Saudi FIU. And it involved setting up an FIU, joining the 
Egmont Group is to be encouraged in all of the countries that 
we deal with. It is one of the very real ways that countries 
can all cooperate in a very transparent and supportive way to 
try to stop the terrorist movement of money around the world. 
Not knowing whether or not an FIU is actually in place is a 
serious problem, and I am concerned about what the process was 
that caused the disparity in the responses to the questions 
that I asked about the FIU. I really did not get an answer that 
I was comfortable with, and I would like to go back to ask that 
question about the TFWG. If there was discussion at the TFWG 
prior to the testimony that was given here at the committee, 
whether anybody here knows, maybe somebody sitting behind you 
might know, whether there was discussion there about the Saudi 
FIU? And any one of you can answer that or I will ask you each 
individually.
    Mr. Feierstein. Madam Chairwoman, during the brief recess, 
we did discuss this, and I can offer you only that to the best 
of the recollection of the people who are sitting behind me, 
some of whom were involved at that time, this was not an issue 
that came before the FIU--or before the TFWG. But having said 
that, I must say that I am still not comfortable, and I would 
much prefer to have an opportunity to take that question back 
and research it more thoroughly and give you a considered 
response.
    Chairwoman Kelly. Okay, thank you. I am more comfortable 
with that answer, thank you. I want to go then to my other 
question that I asked just before I left and that was the 
question about what plan is being developed to set in place 
some metrics for success in this interagency discussion? When 
Secretary Snow was here at one point, I asked him where the 
buck stopped on this, and he said, ``It stops on my desk.'' And 
he then came back and told us that they had set up within 
Treasury an interagency desk that was working fairly well. I do 
not know at this point whether it is still working well within 
Treasury or whether it has been stood down? And, Mr. McDonald, 
maybe you can answer that question for me.
    Mr. McDonald. I know that as Under Secretary Levey 
testified earlier this week before a Senate committee, that he 
has been in very close touch with the Secretary and other 
senior officials within Treasury about the entire range of 
issues that have to do with terrorist financing, of which 
technical assistance is one component, and that developing 
metrics for measuring success and combating terrorist financing 
is a very big item on his agenda. I do not know, frankly, the 
status of efforts to develop metrics for success for combating 
terrorist financing broadly. I can tell you--
    Chairwoman Kelly. Can you find that out for us and come 
back with an answer?
    Mr. McDonald. Yes.
    Chairwoman Kelly. Can you answer the second question that I 
asked--is that desk that had several agencies from Justice and 
other Departments still in existence at Treasury and is it 
still functioning?
    Mr. McDonald. I don't know about that, and I will have to 
find that out too.
    Chairwoman Kelly. Can you come back with an answer for 
that?
    Mr. McDonald. Yes.
    Chairwoman Kelly. Thank you.
    Mr. Sabin. Madam Chairwoman?
    Chairwoman Kelly. Yes.
    Mr. Sabin. I can supplement on the metrics point.
    Chairwoman Kelly. Yes.
    Mr. Sabin. The Criminal Division of the Justice Department 
has a metrics system that examines the five basic areas of an 
effective counter terrorism financing and asset forfeiture, 
money laundering mechanism for each of the countries that 
receive United States assistance that goes to, as articulated 
in the GAO report, the five key areas of legal development and 
reform, financial regulatory aspects, capacity for financial 
investigations, law enforcement and judicial and prosecutorial 
capabilities, so in those five areas. As a baseline, you have 
reports, initial reports that are conducted called the 
Financial Systems Analysis Team Reports, and that is also 
referenced in the GAO report. That baseline information is 
compiled and then used against those five areas to ascertain, 
both short term and long term, whether there is appropriate 
reporting and to analyze what kind of practical impact occurs, 
so how U.S. foreign assistance has been allocated, to which 
countries, for which particular courses for training, for how 
many different foreign counterparts. And then drilling down in 
terms of the specifics, what legislative drafting has been 
undertaken in those particular areas, what reports have been 
issued relating to bulk cash smuggling, and how that, in turn, 
has led to specific actions by an FIU. Those kinds of specifics 
compiled, analyzed, tracked, I am not saying it is perfect or 
that it is all that we would want to be and that it is to the 
extent of something that we are comfortable with, but we are 
committed to making sure that, as we indicated before, that it 
is an integrated approach that is accountable and that we can, 
when called upon to do so, be accountable and transparent in 
relaying that information.
    Chairwoman Kelly. An integrated intra- and interagency?
    Mr. Sabin. Correct.
    Chairwoman Kelly. Good, thank you very much. For that, I 
thank you because that is much more information than I was 
getting before.
    I now want to go on to how you are working with the other 
nations, our friends and our allies, with regard to the 
terrorist money movement. Are you working at doing some 
parliamentary assistance with the other nations of the world 
with regard to trying to get them to pass laws and do what you 
can to get them to use--everybody has to use the same set of 
metrics or it is not integrated enough to be worthwhile--are 
you doing that? And I am going to each Agency to answer that. 
Let's start with you, Mr. McDonald.
    Mr. McDonald. Sure, yes, by all means. Although Treasury 
technical assistance providers tend to be based in a finance 
ministry or a central bank or an institution like that, they 
spend a lot of time and work a lot with parliamentarians. 
Intermittent advisors provide executive seminars to parliament 
in many countries around the world to explain the rationale and 
the benefits of passing anti-money laundering legislation and 
legislation related to creating Financial Intelligence Units. 
Resident advisors who are on the ground week after week in 
those countries do not spend all their time in the central bank 
and the finance ministry but spend a good deal of their time 
with officials from parliament, reinforcing those same points.
    I would add, although this was not specifically in your 
question, a public information campaign is an important part of 
informing parliament and helping to encourage them about the 
importance of this. I saw that when I was in Zambia just 2 
weeks ago. That is a country where anti-money laundering 
legislation is important--it is before the parliament, and has 
not been passed yet, I met with members of the press and among 
the things that I talked about was the importance of passing 
such legislation. I confess that I did not meet with the 
parliamentarians, but I will take from our discussion today the 
note that I will make sure that I do on my next trip.
    Chairwoman Kelly. I think that is a good idea. I wonder 
also if you have anything in place where you can actually 
measure the success of the kind of thing that I understand that 
you have been doing, which is sending people out to talk to 
these parliaments and the financial officers in the various 
countries. Is there any kind of, I don't want to say report 
card, but is there some kind of a way, do you have anything in 
place to measure step by step because some of these things must 
take into account cultural considerations as well as the 
financing situation. So if you have that in place, what is it? 
And I am not going to ask you to detail it, but I just want to 
know if it is there and if it works?
    Mr. McDonald. The best thing that I would reference in 
answer to your question is the work plan that is developed for 
each advisor, for each technical assistance provider, that lays 
out at the beginning, and in consultation with counterparts 
from that country, and taking into account the cultural issues 
that you mentioned, a detailed road map of what is to be 
accomplished. And if within that road map there is work on 
legislation and dealing with parliaments, that would be 
highlighted. And there are monthly reports, monthly reports on 
progress towards the meeting of those objectives. Those monthly 
reports are made available to other agencies within the U.S. 
Government, through the TFWG, and are available to the 
Congress.
    Chairwoman Kelly. Good. Thank you. Okay.
    Mr. Feierstein. Madam Chairwoman, if I could respond also 
to the two questions. And in the first one, certainly to mirror 
what Larry said in terms of the emphasis that we place on 
working with governments overseas, with host governments, to 
promote the passage of anti-money laundering and counter 
terrorism financing legislation. This is a very high priority 
with our embassies overseas that engages the chiefs of mission, 
it engages other officers in the embassy on a regular basis to 
use their positions to reach out not only to the appropriate 
government agencies in those countries but also to work with 
parliamentarians. This is certainly part of the performance 
responsibilities and goals and objectives that any embassy 
would have. And also to use our own bilateral dialogues at 
senior levels to continue to pursue that.
    I can mention in particular that yesterday, for example, we 
had a bilateral discussion with our counterparts from the 
Government of Pakistan where passing a money laundering deal is 
a very high priority for the U.S. Government. One of Mr. 
Sabin's colleagues was there from the Department of Justice, 
and we spent a good bit of the afternoon actually talking about 
anti-money laundering legislation and how we might move forward 
on getting that bill through the Pakistani parliament.
    In terms of the second question you asked, whether there is 
a report card or not, I would draw your attention to the INCSTR 
report, the International Narcotics Control Strategy Report. 
The latest edition came up to the Congress in March of 2006 and 
it does rate the performance of governments in 16 different 
categories, including criminalized drug money laundering, 
criminalized beyond drugs, record large transactions, maintains 
records over time, reports suspicious transactions, a Financial 
Intelligent Unit, a system for identifying and forfeiting 
assets, arrangements for asset sharing, cooperates with 
international law enforcement, international transportation of 
currency, mutual legal assistance, non-bank financial 
institutions, disclosure of protection of safe harbor, state's 
party to the 1988 UN Convention, criminalized financing of 
terrorism, and International Terrorism Financing Convention. So 
each country is rated in each of those categories.
    Chairwoman Kelly. Mr. Feierstein, I thank you very much for 
that information. INCSTR has always been pretty good, my 
question was actually addressed to what you are doing within 
your own Agency.
    Mr. Feierstein. In terms of?
    Chairwoman Kelly. In terms of how do you measure your own 
success? How do you, and obviously Treasury has a work plan 
that they set out for every person who is going out and they 
set goals for achievement.
    Mr. Feierstein. Right.
    Chairwoman Kelly. Do you do that?
    Mr. Feierstein. Yes, in any agreement that we sign. And, of 
course, the State Department itself is not a provider of 
technical assistance or training. We do turn to our counterpart 
agencies, to our partners, like Department of Justice or the 
others, to actually carry through with the training. But in any 
agreement that we negotiate in terms of training or technical 
assistance that is going to be provided, that does include a 
performance indicator, and what it is that we expect to see at 
the end of the training or technical assistance and what are 
the parameters for measuring success.
    Chairwoman Kelly. In the field?
    Mr. Feierstein. In the field.
    Chairwoman Kelly. Mr. Sabin?
    Mr. Sabin. It goes back to your point about the integration 
of the different roles and responsibilities. So, as Mr. 
McDonald pointed out, the building of goodwill, the ability to 
execute in the particular country for that legislation was 
preceded by Justice Department lawyers involved in the actual 
drafting of the particular legislation. So we understand that 
we will provide those skills and experiences to build the 
trust, work through the particular issues involved in that 
country and that region regarding the appropriate legislation. 
And then if called upon to do so by our partners in the 
interagency process, assist in the execution under their 
direction as appropriate.
    Chairwoman Kelly. Thank you. I have a question for you, Mr. 
Sabin. I would like to know what contributions the OCDETF has 
its fusion center play in identifying the vulnerabilities to 
money laundering and enabling the Federal Government to bring 
prosecutions, can you identify that for us?
    Mr. Sabin. If I understand your question, you are referring 
to the Organized Crime Drug Enforcement Task Forces.
    Chairwoman Kelly. Yes.
    Mr. Sabin. That has the combination of narcotics-generated 
information dealt with in terms of a task force approach to 
determine and prioritize significant targets, both domestically 
and internationally.
    Chairwoman Kelly. Well, we know there are a few, there is a 
mix, the bad guys and the terrorists sometimes talk to each 
other and work with each other.
    Mr. Sabin. Absolutely.
    Chairwoman Kelly. So that is the basis for my question.
    Mr. Sabin. Absolutely, and we have seen that in the post 9/
11 world, the ability to not only act as independent cells but 
in the decentralized aspects and the desire to fund in this 
evolving nature of al Qaeda or other foreign terrorists 
organizations, how they piggyback upon traditional criminal 
enterprises, and how they use infant formula or cigarette 
smuggling or narcotics trafficking and those kinds of 
endeavors, both in the United States and with our partners 
abroad. I had the chance to appear before the Organization of 
American States with the lead investigating magistrate from 
Spain, Magistrate Garzon, to talk upon that precise issue. It 
is a very significant issue, not only within this hemisphere, 
but around the world. And how that is fueled by the Organized 
Crime Drug Enforcement Task Force is to ensure those particular 
metrics, who is the defendant, what are the links, how are the 
associational activities occurring, how can you in order to 
have a comprehensive disruption strategy not only go after a 
particular individual for putting that person behind bars but 
to go for the entire flow of the money chain.
    Chairwoman Kelly. Thank you. Mr. Scott.
    Mr. Scott. Thank you, Madam Chairwoman. Let me start off 
with a series of questions dealing with really the 
infrastructure and the need for you all to have some kind of 
infrastructure working together. My first point is, I want to 
start with both the State Department and the Treasury 
Department, Mr. McDonald and Mr. Feierstein, given the GAO's 
conclusion that the U.S. Government lacks a unified picture of 
available budget resources that State and Treasury can allocate 
for training and technical assistance to foreign countries, 
what steps are Treasury and State taking toward gaining a 
systematic understanding of the available resources?
    Mr. Feierstein. Sir, that is a very good question. And I 
would say at the time that the GAO did their report, that was 
probably an accurate characterization of the state of affairs. 
Since then, however, I can say that under the auspices of the 
Technical Assistance Subgroup, in other words, the group that 
the TFWG reports to, we have been engaged in an interagency 
effort to build a comprehensive database of all of the training 
that the U.S. Government has provided and is providing around 
the world so that when we have completed that process, which is 
not complete yet, we should be able to respond very clearly and 
it will be a living document that all of the agencies 
participating in the interagency process can use in order to 
develop their own training plans and to identify areas where 
perhaps more work can be done and needs to be done.
    Mr. Scott. What is your take on the available resources, 
would you say we have sufficient available resources once you 
have this unified picture?
    Mr. Feierstein. Sir, I think that certainly the more 
resources that we have, the more that we can do. And we are, I 
think, becoming more efficient and effective in our ability to 
use the resources. When we first embarked on this effort in 
late 2001, 2002, I think that there was a period of time where 
we were just developing training programs, just going out and 
doing the assessments. As we move along, our ability to move 
more quickly has improved and our ability to utilize the 
resources has improved. So I think we anticipate--for the State 
Department of course, the Treasury Department also has its own 
source of funding, but for the State Department we use two 
categories of funding really for counter terrorism financing. 
We use the NADR accounts, the non-proliferation, anti-
terrorism, de-mining and related programs accounts, and then we 
use the INLEA, the International Narcotics and Law Enforcement 
Accounts. Between those two, we anticipate that we will 
obligate about $10 million this year, fiscal year 2006, for 
programs related to counter-terrorism financing. We anticipate 
or we have requested the Congress, again with between those two 
accounts, for an increase to about $13 million next year. And 
we do believe that we could use those funds.
    Mr. Scott. Great. I am trying to get as many questions as I 
can in my limited time. To Mr. McDonald from Treasury, in your 
testimony you stated that you accept the State Department's 
lead in this endeavor. Does this extend to the delivery of 
technical assistance to countries that are not on the TFWG 
priority list where we do have efforts in progress?
    Mr. McDonald. There is a difference--in fact the GAO 
comptroller referred to different kinds of leadership, and I 
think that is an appropriate distinction to make here. In the 
TFWG area, the interagency process that we are talking about 
here, there is a level of leadership and a kind of leadership 
that goes beyond the norm. But I would not use the term--I 
would find a different term for the relationship that we have 
with respect to countries that are not part of the TFWG 
process. We coordinate closely with the State Department, both 
here in Washington and certainly at embassies. I do not think I 
would the term the ``lead'' with respect to those countries 
that are not part of the TFWG process. But I would hasten to 
add that when I speak of coordination, I do not mean 
``coordination-lite.'' I mentioned earlier that I went to 
Zambia to talk about Treasury activities in Zambia, I would not 
have been able to go to Zambia if I had not consulted already 
with the State Department and with the embassy to explain the 
purposes of my trip, get country clearance. And, indeed, when I 
arrived in the country, the Ambassador accompanied me to many 
of my meetings. So even though I would not use the term 
``lead,'' and I do not think the Ambassador herself would have 
used the term the ``lead,'' in terms of my trip there, we were 
linked up arm-in-arm at every stop during the trip.
    Mr. Scott. Well, let me ask you this, I know my time is 
getting short but I have a number of questions here. I am very 
concerned that you seem to reject the GAO's, their 
recommendations for a strategic plan. I think you said that you 
probably would accept that but not to the non-priority 
countries. An example of why I think that you need a strategic 
plan and you need a shared plan and you need that Memorandum of 
Understanding and agreement with each other is because all of 
your agencies are so interlocking in this pursuit. And nowhere 
is this better dramatized than during my recent visit to 
Afghanistan and Pakistan, particularly, and also Bulgaria. And 
the reason I mention that if you know geographically what I am 
talking about, that is an extraordinary entry point, border 
point, for the process and the transportation of the number one 
product from that region, which is the poppy, which is the 
heroin, which is the morphine, which is the drug traffic. In my 
conversations there with each official, and knowing of our 
interest in this issue on terrorist financing, I raised 
questions and issues with these and one of which was in terms 
of our country, did they feel we are doing enough, was that 
effort coordinated? And we get a thumbs down, especially in the 
Bulgaria region where so much of the traffic comes through. And 
your comment, Mr. Sabin, I tend to sympathize with you more 
than anybody else, and I think I am sympathizing right, I think 
your objection to this Memorandum of Understanding is that you 
are not included. I cannot understand for the life of me why 
you are not included at an equal level, at an equal 
participatory level with Treasury and with State. And if there 
is one recommendation that ought to come out of this hearing, 
it should be that you lifted up and your Agency involved in 
this. Because so much of this terrorist financing is criminal. 
So much of it is coming right there out of Afghanistan. We 
talked with the generals and commanders in Afghanistan. We were 
talking about it with President Karzai in Kabul as we were 
meeting, and he said that is the number one problem. And when 
we talked with the generals and commanders on the ground in 
Afghanistan, they have a problem with al Qaeda, they have a 
problem with the Taliban, but their biggest problem is with the 
drug lords. And there is an interrelationship, they do not care 
how this money or where it goes, and so much of it, illicit 
money, coming out of the heroin trade and coming out of that 
region is used for terrorist financing. And I think that that 
is why we need to have a closer working relationship with the 
three of you.
    And I would like to, in my final point here, get from you 
why you are so obstinate about the recommendations about the 
GAO who clearly to me seems to be the referee in this and the 
person who is trying to give us the direction we need. We need 
glue between the three of you and that glue is not there. And 
the American people deserve that glue to be there and we are 
not going to make it, we are not going to be successful if we 
do not have some kind of understanding, some kind of agreement. 
So I just wanted to get your reaction to what I have said. And, 
number one, basically what will it take for you all to 
understand we need that Memorandum of Understanding and 
agreement and certainly with the strategic planning and the 
recommendations that the GAO has made?
    Mr. Sabin. I will start since it is a rare occasion when I 
can get a Congressman to agree with me.
    Mr. Scott. Well, I certainly agree with you on this because 
I have been over there and I know about the criminal activity 
and I know what is happening over in that region and how it is 
getting right into the terrorists' hands.
    Mr. Sabin. I appreciate your comments and I appreciate the 
goal that we need to rise to the occasion to get this right for 
the American people. And I think everyone here, both at the 
table and the people that we are speaking for who are doing the 
work day in and day out, share that mission and share that 
goal.
    In terms of getting it right in terms of the specifics, I 
would say that the inclusion of all the sister agencies, the 
ones here and even Homeland Security, which is not, to make 
sure that we have it integrated. One of the fundamental points 
in the GAO report was to make sure that it is integrated. We 
would respectfully submit that we have a strategy in place. Is 
it evolving? Absolutely. Are we working to make sure that it is 
clearer, that roles and responsibilities and duties and 
responsibilities are understood so that it does not play out to 
negative consequences at the fundamental features of another 
country. Because when they are asking for our assistance, they 
are saying, okay, the U.S. Government, come here and share with 
us your expertise, your skills, and when we do not provide the 
highest and best or we do it because of the initial points that 
folks are making because of ``turf battles,'' I think we all 
suffer, and we would suffer for a long-term basis. So I think 
we believe that we have strategic plans in place, that we are 
working to make them better and sharper and more focused, that 
would define the roles and responsibilities of each of the 
individual agencies, and that to enter into sort of a formulaic 
Memorandum of Understanding is not the mechanism to achieve 
that goal. That we need to in our strategic planning define 
those roles and responsibilities, I think we have articulated 
that here today and will continue to do so in order to achieve 
what you suggested we should be achieving.
    Mr. Scott. What would it hurt to have a Memorandum of 
Agreement, of Understanding between the three of you? I 
cannot--where is the rub on this? Why would the GAO make that 
their primary recommendation to improve our ability to access 
information on terrorist financing and you all reject it, 
saying what you have is there? Something is not clicking here.
    Mr. Sabin. Just to the finish the point, that goes back to 
their recommendation does not address Justice. So to take your 
premise--
    Mr. Scott. Well, if they put Justice in it, would you be 
all right?
    Mr. Sabin. Well, but take it to the next step, would you 
include Homeland Security?
    Chairwoman Kelly. If the gentleman will yield?
    Mr. Scott. Yes.
    Chairwoman Kelly. In TFWG, Justice is included and so is 
Homeland Security, and other participants are the National 
Security Council, the CIA, the FDIC, and the Federal Reserve 
Board. Perhaps all of those Agencies should be included in an 
MOU. I think that is what you are talking about, is that Mr. 
Scott?
    Mr. Scott. Yes, it definitely is.
    Mr. Sabin. And then our point is that interagency process 
is in place, that it is evolving but we do have that structure 
and that folks have their duties and responsibilities as 
articulated in the Terrorist Financing Working Group or the 
next level in the TASG.
    Chairwoman Kelly. Again, Mr. Scott, if you do not mind if 
I--
    Mr. Scott. Please do.
    Chairwoman Kelly. I suspect the evidence here is the 
frustration we all feel because it is not clear, it is not 
clear to us in Congress, it is not clear in the Senate and it 
is not clear here in the House, that it is structured, that 
there is working, that there is some kind of cooperation 
because the letters and responses we get say it is under study 
or we are discussing it. We do not see a clear structure and, 
clearly, that is exactly what the GAO was saying to us in their 
report. I do not know, Mr. Scott, if that characterizes what 
you are talking about but I believe that that is what we are 
all trying to do here, is find out if it exists, who is 
involved, what definition each person has, and if each Agency 
actually understands what they are supposed to be doing, and 
how it is working, whether this cooperation is working because 
we hear stories of the fact that there are still all the 
territorial fights going on. Go ahead, Mr. Scott, I am sorry, I 
yield back.
    Mr. Scott. Yes, that is fine, I really appreciate it, Madam 
Chairwoman, that we are both saying the same thing and we have 
to get an answer to this. The American people are demanding 
that we get an answer to this. It is not working, it has to be 
fixed and we have to find out what this objection is. If you 
all cannot do it, then maybe we in Congress will have to, by 
Congressional act, force you to have a simple Memorandum of 
Understanding. It is as plain as the nose on my face, and just 
judging from our testimony here, that you should have a 
Memorandum of Understanding and agreement with what each is to 
do. Yours is an extraordinary mission, it is to provide 
technical assistance to foreign countries in terms of counter-
terrorist activities for terrorist financing. And each of you 
have a role to play. It is important that you be on the same 
page. And all we are saying is, let's get the page. It is as 
plain as that. And I believe that this committee is going to 
get to the point, frustrated enough to the point, that we may 
have to introduce legislation for you to have to do that. That 
is what is going to help us. That is what is going to make sure 
that over in that region of the world where the money is coming 
from, if I am sitting up here and I have to go way to 
Afghanistan and Pakistan and Bulgaria and that whole region, 
that is where a great deal of the money is coming from. And our 
young men and women in uniform, doing a magnificent job over 
there, and they will tell you their biggest fight is against 
the war lords and the drug lords that is happening in that 
country. And President Karzai said the same thing. The 
officials in Bulgaria have indicated that their check point, 
that they don't even have a working relationship with the 
Treasury Department, with the State Department, let alone 
Justice. So we are woefully neglecting this. That Memorandum of 
Understanding, that report that is required to be given to the 
Congress is all that the GAO report is asking for. It is 
sensitive information. There is so much of what I want to say 
and ask for but I know C-Span goes everywhere and the 
terrorists will watch C-Span as well. And we do not want to 
give the enemy and terrorists as much information as they may 
need to counter what we are doing. But, the American people are 
demanding that we get the information one way or another. And I 
think that a Memorandum of Understanding is not too much to ask 
for, and I am on record as advocating that. I think that the 
GAO report is absolutely right, and I think we should follow 
those recommendations. For them to give the recommendations and 
you all to stonewall it, is not in the best interest of what we 
are trying to do.
    Chairwoman Kelly. Thank you, Mr. Scott. Mrs. Wasserman-
Schultz.
    Mrs. Wasserman-Schultz. Thank you, Madam Chairwoman. This 
question is for Mr. Sabin. Could you describe how the use of 
contractors by Treasury in the drafting of legislation in non-
priority countries has created problems because I know that 
Justice feels strongly that is an issue? And can you also tell 
us what steps have been taken, if any, to remedy that problem?
    Mr. Sabin. We are working with Treasury effectively and 
efficiently. There have been issues in the past regarding 
contractors, but there are a number of people, as Mr. Scott and 
others have mentioned, who are passionate about contributing to 
the mission. And, as Mr. McDonald indicated, there are 
resources available in Treasury that can complement the Justice 
Department and other Agency's allocation of resources. In 
Justice Department's core areas, dealing with legislative 
drafting, assistance for judges and prosecutors, that is where 
our lane is and our primary focus. There have been instances in 
the past where because of miscommunication or other issues, we 
were not putting our best foot forward. I think we have 
addressed that. I think we understand where we need to be and 
that the Government is united in going forward to make sure 
that in those areas, there is not a misstep and that we are 
doing the best that we can do for our foreign partners in terms 
of training their judges, training their prosecutors, and 
drafting appropriate legislation for terrorist financing or 
money laundering.
    Mrs. Wasserman-Schultz. Mr. Sabin, do not take this the 
wrong way but that is a little vague. Could you be more 
specific as to what steps are being taken to resolve the 
conflict?
    Mr. Sabin. Well, in terms of the Terrorist Financing 
Working Group, the individual countries that are requesting 
assistance, coming from the particular financial assessment 
reports that have been done by the country team that 
investigates what the needs are or the gaps are, we need a 
specific financial regulatory mechanism, a know your customer 
law, whatever the particular legislative need or gap that 
exists. So you sit down at the Terrorist Financing Working 
Group and say, ``Okay, Justice, this is an area, a country that 
needs the assistance, do you have the appropriate resources, 
either in your Asset Forfeiture Money Laundering Section or 
your Office of Professional Development and Assistance in 
Training, where you can put a resident legal advisor in that 
particular country or some other mechanism, both in terms of 
your skills and experiences or your human capital to have them 
in place.'' If Justice can serve that need, we will then go 
advise the other members of the Terrorist Financing Working 
Group that we are deploying and make appropriate arrangements 
to share what we are experiencing once we have deployed, 
whether that is short term or long term. So that there is an 
assessment of who is going to be held accountable, what the 
specific needs are, how long that needs to be implemented or 
deployed, and then how you will measure and track the success 
of the specific country. And we go through each of the 
different countries with that kind of analysis and coordination 
with Treasury. We cannot be everywhere at all times so we 
respect and understand the value that the Treasury contractors 
or other agencies provide and welcome that as long as there is 
appropriate coordination at the outset so that we are giving 
the best assistance that we can.
    Mrs. Wasserman-Schultz. So the quarrel over contractors or 
no contractors has essentially been resolved and you are 
looking at it on a case-by-case basis?
    Mr. Sabin. I believe that it has been resolved. Will it be 
perfect for every matter going forward? I cannot promise you 
that. But I think that from our perspectives sitting here 
today, we understand our roles, we understand our particular 
lane, and hopefully that there will not be any issues in the 
future.
    Mrs. Wasserman-Schultz. Thank you. My other question is for 
Treasury. According to the GAO report, Treasury rejected GAO's 
recommendation that your Department provide more complete 
information on the nature and extent asset blocking in the 
United States in your annual report to Congress. And, in fact, 
the GAO report states that Treasury wants to discontinue the 
requirement that Treasury produce that annual report all 
together. Why does Treasury think that it should not be 
required to report to Congress?
    Mr. McDonald. I made it a point to touch base with my 
colleagues in the Office of Foreign Assets Control before I 
came up here today because since I am not an official from OFAC 
and do not really have a mandate in that area, I wanted at 
least to be able to provide as much information as I could 
about the current status of the issue that you raise. And I am 
advised by OFAC that the TAR, which is the vehicle for 
providing the information that you are referring to, is in the 
clearance process and is expected to be submitted to Congress 
this month. So I think that is in the next 24 days, if my math 
is correct. And that is as much as I know about it as of today, 
but I will be happy to take your question back with me and get 
more from them if you would like.
    Mrs. Wasserman-Schultz. Thank you. Madam Chairwoman, I 
realize my time has expired but I think that is a really 
important piece of information.
    Chairwoman Kelly. And the committee officially requests a 
response to that question. Mr. McDonald, would you like to 
continue?
    Mr. McDonald. May I share an anecdote that relates to the 
question that you raised earlier, Congresswoman, and that 
others have raised about how these kind of things can happen 
that an advisor might not respect or might overstep the 
boundaries of what he or she is supposed to do in a country and 
wander into the lane that is appropriately reserved for another 
Agency. When I was an advisor in Albania, I was from time to 
time asked to provide information on things that I knew 
something about actually, but I did not have a mandate to 
provide. My counterparts from that country, who did not 
understand really the structures of our Government, and whose 
own government did not have such formalized structures, found 
it very difficult to understand why, if I knew something, I 
couldn't go ahead and just tell them. The answer is that, and 
this was not an answer that they enjoyed hearing, was that I 
have to be disciplined, I have to respect their own needs, and 
their desires for information as quickly as possible, that I 
have to respect the mandate under which I am operating in that 
country. And I offer that anecdote as a way of indicating that 
sometimes the difficulties that we are talking about today 
arise out of the most positive of motivations, the motivation 
from a country to get information as quickly as possible, as 
efficiently as possible. The motivation for an advisor who is 
on the ground and has established a working relationship with 
those counterparts is to be helpful, but the right answer and 
the right thing is to respect the lines of authority. We are 
going to do that, but I offer that just as a real life on the 
ground example of how sometimes these things can happen.
    Mrs. Wasserman-Schultz. Madam Chairwoman, I would just 
conclude by saying that if there was a better working 
relationship between the three Departments, then you probably 
would not run into problems like that. That is what Memorandums 
of Understanding are for.
    Chairwoman Kelly. Let's hope. Ms. Moore.
    Ms. Moore. Well, good afternoon, thank you so much, Ms. 
Kelly, for calling this meeting. It certainly is responsive to 
the minority party to follow-up with this hearing. I wanted to 
follow up on things that have already been mentioned but give a 
very specific example, and I would like to ask Treasury and 
Justice about terrorist financing, about freezing the assets of 
the Muslim community. And, Madam Chairwoman, I would like to 
enter into the record an article from The Washington Post 
called, ``The Crime of Being a Muslim Charity,'' without 
objection?
    Chairwoman Kelly. So moved.
    Ms. Moore. Thank you. And my constituents are concerned 
that of the dozen or so charities that have been frozen, they 
would like to know how many of these employees, board members, 
or officers of these charities has Treasury convicted of aiding 
terrorists and what specific steps have you taken to sort out 
those funds that are terrorist financing and those that are 
simply part of their Zakat, which is like our tithing, that 
they are required to do as one of the pillars of their 
religion. And to really release those funds toward the Tsunami 
and Katrina and certain other activities where they really have 
wanted to contribute?
    Chairwoman Kelly. Mr. McDonald, this is not a closed 
informational hearing, I just wanted to remind you of that.
    Mr. McDonald. Thank you. Here, again, I am going to have to 
take your question, and I will take your question immediately 
back to my colleagues in TFI. I do recall, again from Under 
Secretary Levey's testimony earlier this week before another 
body on the Hill, he referred to and gave some information 
about the process of freezing assets of charities. I work 
everyday with my counterparts in TFI, Deputy Assistant 
Secretary Glaser, Assistant Secretary O'Brien, and others, and 
I will bring your question to them with dispatch.
    Ms. Moore. Well, thank you. And I just want to pursue a 
line of questioning that my other colleagues have pursued as it 
relates to this Memorandum of Understanding. With all respect 
to your internal process and internal agreements, GAO, which is 
a respected organization for their audits, has indicated that 
your internal agreements are ad hoc, they are mutable, they are 
non-transparent, and I have heard you, Mr. Sabin, indicate that 
this process is evolving. Well, what would be the harm in 
having a Memorandum of Understanding as a baseline 
understanding so that we would have committed in writing a 
starting point and recognizing the evolution of the Memorandum 
of Understanding, why not take on seriously GAO's 
recommendation to have this document at least as a starting 
point?
    Mr. Sabin. To take the GAO recommendation on its face, as 
suggested, would not include the Justice Department in that 
Memorandum of Understanding. The recommendation that came with 
their draft report, Justice said why are not we included even 
though we do not receive funding, we submitted that to GAO 
specifically and they rejected that. So to take your question 
at its face, they would not include Justice in that Memorandum 
of Understanding as presently drafted. So our request in that 
regard was not adopted. But we do agree that there should be a 
baseline understanding of duties and responsibilities, and we 
provided that information to the GAO. They did not think that 
was sufficient. We are mindful of that. And, as we indicated, 
are working to either clarify it here or as we go forward to 
make it as accurate as possible for both the folks at the 
headquarters level and in the field around the world about what 
our duties and responsibilities are.
    In terms of your question about investigations and 
prosecutions, we would be happy to provide you information on 
individuals like Abraham Alamoudi, who was head of the American 
Muslim Council, involved in raising of funds, who was charged 
with criminal offenses, pled guilty and was sentenced to 22 
years incarceration and is currently cooperating with law 
enforcement personnel. I would refer you to the Dallas Holy 
Land Foundation, I cannot talk about it specifically because it 
is an indicted matter, but a grand jury has passed on a true 
bill of indictment regarding those individuals and a number of 
those individuals have previously been convicted of other 
offenses in the Infocom trial that was conducted down in Dallas 
last year. I would refer you to Chicago with Mr. Arnout who was 
convicted of racketeering charges and was sentenced to a 
considerable sentence in the northern district of Illinois. I 
can provide you other cases not only in domestic United States 
prosecutions, but with our foreign counterparts where we have 
either shared information on an informal or formal basis, 
provided cooperating individuals to testify in their terrorist 
financing prosecutions, so our cooperators not only fueling the 
intelligence cycle so that information is fully shared 
domestically but on an international realm.
    Ms. Moore. Can I just follow up because I realize my time 
has expired, Ms. Kelly. Can you also include in that report, 
and congratulations on tracking down this terrorist financing, 
but could you also include in that report what efforts or what 
mechanisms are in place to divert those funds to the 
appropriate places where people claimed that they wanted the 
financing to go? My constituents have said that they have 
wanted it to go towards the Tsunami and Hurricane Katrina, and 
we sure need the extra bucks, so can you tell me about how we 
can unfreeze those assets so that they can reach the 
appropriate and intended charities?
    Mr. Sabin. The charity question is one that in the 
interagency process we are working to effectively address 
because you do not want the ideals of the American people that 
are contributing their monies for humanitarian goals to be 
abused by a particular entity or a specific individual, so it 
would be a fraud on the donor with respect to that particular 
mechanism.
    Ms. Moore. Exactly.
    Mr. Sabin. And that is an area where we are really trying 
to ensure that we have not fraudulent practices and on top of 
that those fraudulent practices allowing for the flow of monies 
to terrorist organizations so that is a key priority, not only 
of the Justice Department but all colleagues in the interagency 
process. And we would be happy to work with our counterparts 
not only on the blocking aspect but the ability to investigate 
and effectively prosecute.
    Chairwoman Kelly. Thank you very much, Ms. Moore.
    Ms. Moore. And unfreezing. Thank you so much, Ms. Kelly.
    Chairwoman Kelly. I might point out that part of the 
problem, as I understand the answer to your question, I do not 
know that anyone has an accurate accounting of what has been 
given where, and I think that may be part of the problem that 
they have with it. But I appreciate the line of questioning. I 
appreciate the fact that you came to the committee to 
participate. And I very much appreciate the patience and the 
cooperation of the people who are here on the panel, this panel 
of witnesses. The Chair notes that some members may have 
additional questions for the panel and they may wish to submit 
those in writing. So without objection, the hearing record is 
going to remain open for 30 days for members to submit written 
questions to these witnesses and place their responses in the 
record.
    Again, we thank you for your patience and your answers. 
This hearing is adjourned.
    [Whereupon, at 1:15 p.m., the subcommittee was adjourned.]


                            A P P E N D I X



                             April 6, 2006


[GRAPHIC] [TIFF OMITTED] T0535.001

[GRAPHIC] [TIFF OMITTED] T0535.002

[GRAPHIC] [TIFF OMITTED] T0535.003

[GRAPHIC] [TIFF OMITTED] T0535.004

[GRAPHIC] [TIFF OMITTED] T0535.005

[GRAPHIC] [TIFF OMITTED] T0535.006

[GRAPHIC] [TIFF OMITTED] T0535.007

[GRAPHIC] [TIFF OMITTED] T0535.008

[GRAPHIC] [TIFF OMITTED] T0535.009

[GRAPHIC] [TIFF OMITTED] T0535.010

[GRAPHIC] [TIFF OMITTED] T0535.011

[GRAPHIC] [TIFF OMITTED] T0535.012

[GRAPHIC] [TIFF OMITTED] T0535.013

[GRAPHIC] [TIFF OMITTED] T0535.014

[GRAPHIC] [TIFF OMITTED] T0535.015

[GRAPHIC] [TIFF OMITTED] T0535.016

[GRAPHIC] [TIFF OMITTED] T0535.017

[GRAPHIC] [TIFF OMITTED] T0535.018

[GRAPHIC] [TIFF OMITTED] T0535.019

[GRAPHIC] [TIFF OMITTED] T0535.020

[GRAPHIC] [TIFF OMITTED] T0535.021

[GRAPHIC] [TIFF OMITTED] T0535.022

[GRAPHIC] [TIFF OMITTED] T0535.023

[GRAPHIC] [TIFF OMITTED] T0535.024

[GRAPHIC] [TIFF OMITTED] T0535.025

[GRAPHIC] [TIFF OMITTED] T0535.026

[GRAPHIC] [TIFF OMITTED] T0535.027

[GRAPHIC] [TIFF OMITTED] T0535.028

[GRAPHIC] [TIFF OMITTED] T0535.029

[GRAPHIC] [TIFF OMITTED] T0535.030

[GRAPHIC] [TIFF OMITTED] T0535.031

[GRAPHIC] [TIFF OMITTED] T0535.032

[GRAPHIC] [TIFF OMITTED] T0535.033

[GRAPHIC] [TIFF OMITTED] T0535.034

[GRAPHIC] [TIFF OMITTED] T0535.035

[GRAPHIC] [TIFF OMITTED] T0535.036

[GRAPHIC] [TIFF OMITTED] T0535.037

[GRAPHIC] [TIFF OMITTED] T0535.038

[GRAPHIC] [TIFF OMITTED] T0535.039

[GRAPHIC] [TIFF OMITTED] T0535.040

[GRAPHIC] [TIFF OMITTED] T0535.041

[GRAPHIC] [TIFF OMITTED] T0535.042

[GRAPHIC] [TIFF OMITTED] T0535.043

[GRAPHIC] [TIFF OMITTED] T0535.044

[GRAPHIC] [TIFF OMITTED] T0535.045

[GRAPHIC] [TIFF OMITTED] T0535.046

[GRAPHIC] [TIFF OMITTED] T0535.047

[GRAPHIC] [TIFF OMITTED] T0535.048

[GRAPHIC] [TIFF OMITTED] T0535.049

[GRAPHIC] [TIFF OMITTED] T0535.050

[GRAPHIC] [TIFF OMITTED] T0535.051

[GRAPHIC] [TIFF OMITTED] T0535.052

[GRAPHIC] [TIFF OMITTED] T0535.053

[GRAPHIC] [TIFF OMITTED] T0535.054

[GRAPHIC] [TIFF OMITTED] T0535.055

[GRAPHIC] [TIFF OMITTED] T0535.056

[GRAPHIC] [TIFF OMITTED] T0535.057

[GRAPHIC] [TIFF OMITTED] T0535.058

[GRAPHIC] [TIFF OMITTED] T0535.059

[GRAPHIC] [TIFF OMITTED] T0535.060

[GRAPHIC] [TIFF OMITTED] T0535.061

[GRAPHIC] [TIFF OMITTED] T0535.062

[GRAPHIC] [TIFF OMITTED] T0535.063

[GRAPHIC] [TIFF OMITTED] T0535.064

[GRAPHIC] [TIFF OMITTED] T0535.065

[GRAPHIC] [TIFF OMITTED] T0535.066

[GRAPHIC] [TIFF OMITTED] T0535.067

[GRAPHIC] [TIFF OMITTED] T0535.068

[GRAPHIC] [TIFF OMITTED] T0535.069

[GRAPHIC] [TIFF OMITTED] T0535.070

[GRAPHIC] [TIFF OMITTED] T0535.071

[GRAPHIC] [TIFF OMITTED] T0535.072

[GRAPHIC] [TIFF OMITTED] T0535.073

[GRAPHIC] [TIFF OMITTED] T0535.074

[GRAPHIC] [TIFF OMITTED] T0535.075

[GRAPHIC] [TIFF OMITTED] T0535.076

[GRAPHIC] [TIFF OMITTED] T0535.077

[GRAPHIC] [TIFF OMITTED] T0535.078

[GRAPHIC] [TIFF OMITTED] T0535.079

[GRAPHIC] [TIFF OMITTED] T0535.080


</pre></body></html>
